                                                                        Issue Date
                                                                               November 8, 2007
                                                                        Audit Case Number
                                                                               2008-FO-0002




TO: Brian D. Montgomery, Assistant Secretary for Housing-Federal Housing Commissioner, H



FROM:     Robert McGriff, Director, Financial Audits Division, GAF


SUBJECT:      Audit of the Federal Housing Administration’s Financial Statements for Fiscal
                Years 2007 and 2006

In accordance with the Government Corporation Control Act as amended (31 U.S.C. 9105), the
Office of Inspector General engaged the independent certified public accounting firm of Urbach
Kahn and Werlin LLP (UKW) to audit the fiscal year 2007 and 2006 financial statements of the
Federal Housing Administration (FHA). The contract required that the audit be performed
according to Generally Accepted Government Auditing Standards (GAGAS).

UKW is responsible for the attached auditors’ report dated October 29, 2007 and the conclusions
expressed in the report. Accordingly, we do not express an opinion on FHA’s financial
statements or conclusions on FHA’s internal controls or compliance with laws and regulations.
Within 30 days of this report, UKW expects to issue a separate letter to management dated
October 29, 2007 regarding other matters that came to its attention during the audit.

This report includes both the Independent Auditors’ Report and FHA’s principal financial
statements. Under Federal Accounting Standards Advisory Board (FASAB) standards, a general-
purpose federal financial report should include as required supplementary information a section
devoted to Management’s Discussion and Analysis (MD&A) of the financial statements and
related information. The MD&A is not included with this report. FHA plans to separately
publish an annual report for fiscal year 2007 that conforms to FASAB standards.

The report contains two material weaknesses and one significant deficiency in FHA’s internal
controls. The Department and FHA disagreed with UKW’s assessment that these two
weaknesses in internal controls over financial reporting were material weaknesses. The
Department reported no material weaknesses for Federal Managers’ Financial Integrity Act
(FMFIA) reporting in its fiscal year 2007 PAR. In addition, FHA reported no material
weaknesses in its fiscal year 2007 Annual Management Report’s Annual Assurance Statement on
Internal Controls over Financial Reporting.

This year’s report contains 16 new recommendations. As part of the audit resolution process, we
will record management’s decisions for the 16 new recommendations in the Department’s Audit
Resolution and Corrective Action Tracking System (ARCATS).

We appreciate the courtesies and cooperation extended to the UKW and OIG audit staffs during
the conduct of the audit.
(THIS PAGE LEFT BLANK INTENTIONALLY)
___________________________________________________________________________________________
                                                                               2008-FO-0002




                                          Table of Contents
      OIG Transmittal Memorandum........................................................................................1

      Independent Auditors’ Report ..........................................................................................5

               Appendix A – Significant Deficiencies and Material Weaknesses.................. 11

               Appendix B – Management's Response ........................................................... 21

               Appendix C – UKW’s Assessment of Management's Response .................... 33

               Appendix D – Status of Prior Year Findings and Recommendations ............. 37

      Principal Financial Statements ...................................................................................... 39

               Consolidated Balance Sheets ............................................................................. 41

               Consolidated Statements of Net Cost ................................................................ 42

               Consolidated Statements of Changes in Net Position....................................... 43

               Combined Statement of Budgetary Resources.................................................. 44

               Notes to Financial Statements............................................................................ 46

               Required Supplementary Information ............................................................... 79




                                                            3
___________________________________________________________________________________________
2008-FO-0002




                      (THIS PAGE LEFT BLANK INTENTIONALLY)




                                             4
______________________________________________________________________________________________________
                                                                                          2008-FO-0002




                                 INDEPENDENT AUDITORS’ REPORT



           Inspector General
           United States Department of Housing and Urban Development

           Commissioner
           Federal Housing Administration


           We have audited the accompanying consolidated balance sheets of the Federal Housing
           Administration (FHA), a wholly owned government corporation within the United States
           Department of Housing and Urban Development (HUD), as of September 30, 2007 and
           2006, and the related consolidated statements of net cost, changes in net position, and
           the combined statements of budgetary resources (Principal Financial Statements) for the
           years then ended. The objective of our audits was to express an opinion on these
           financial statements. In connection with our audits, we also considered FHA’s internal
           control over financial reporting and tested FHA’s compliance with laws and regulations
           that could have a direct and material effect on its financial statements.

           Summary

           We concluded that FHA’s Principal Financial Statements are presented fairly, in all
           material respects, in conformity with accounting principles generally accepted in the
           United States of America.

           Our consideration of internal control over financial reporting resulted in the following
           matters being identified as significant deficiencies:

              x   A risk assessment and systems development plan are needed for FHA’s Home
                  Equity Conversion Mortgage systems and transaction controls
              .
              x   HECM credit subsidy cash flow model needs improvement

              x   FHA system security controls need to be strengthened

           We consider the first two findings to be material weaknesses. We found no reportable
           instances of noncompliance with laws and regulations.

           This report (including Appendices A through D) discusses: (1) these conclusions and our
           conclusions relating to other information presented in the Annual Management Report,
           (2) management’s responsibilities, (3) our objectives, scope and methodology, (4)
           management’s response and our evaluation of their response, and (5) the current status
           of prior year findings and recommendations.




                                                      5
___________________________________________________________________________________________
2008-FO-0002

                     INDEPENDENT AUDITORS’ REPORT, CONTINUED


      Opinion on the Principal Financial Statements

      In our opinion, the Principal Financial Statements referred to above present fairly, in all
      material respects, the financial position of FHA as of September 30, 2007 and 2006, and
      its net cost, changes in net position, and combined budgetary resources for the years
      then ended, in conformity with accounting principles generally accepted in the United
      States of America.

      Consideration of Internal Control

      In planning and performing our audits, we considered FHA’s internal control over
      financial reporting and compliance (internal control) as a basis for designing our audit
      procedures that are appropriate in the circumstances and to comply with Office of
      Management and Budget (OMB) audit guidance, but not for the purpose of expressing
      an opinion on the effectiveness of FHA’s internal control. Accordingly, we do not express
      an opinion on FHA’s internal control.

      A control deficiency exists when the design or operation of a control does not allow
      management or employees, in the normal course of performing their assigned functions,
      to prevent or detect misstatements on a timely basis. A significant deficiency is a
      deficiency in internal control, or a combination of deficiencies, that adversely affects
      FHA’s ability to initiate, authorize, record, process, or report financial data reliably in
      accordance with generally accepted accounting principles such that there is more than a
      remote likelihood that a misstatement of FHA’s Principal Financial Statements that is
      more than inconsequential will not be prevented or detected by FHA’s internal control.

      A material weakness is a significant deficiency, or combination of significant deficiencies,
      that result in a more than remote likelihood that a material misstatement of the Principal
      Financial Statements will not be prevented or detected by FHA’s internal control.
      Because of inherent limitations in internal controls, misstatements, losses, or
      noncompliance may nevertheless occur and not be detected.

      Our consideration of internal control was for the limited purpose described in the first
      paragraph above and would not necessarily identify all deficiencies in internal control
      that might be significant deficiencies or material weaknesses. However, we noted certain
      matters, summarized below and more fully described in Appendix A, involving the
      internal control and its operation that we consider to be significant deficiencies, the first
      two of which are considered material weaknesses:

             A risk assessment and systems development plan are needed for
             FHA’s Home Equity Conversion Mortgage systems and transaction
             controls

             FHA maintains a number of different system platforms for processing
             Home Equity Conversion Mortgage (HECM) endorsements, premiums,
             claims and assigned notes. These systems are not automatically
             integrated and require significant compensating manual controls to
             ensure the accuracy and reliability of financial information being reported
             in the general ledger. They are neither compliant with federal loan




                                                   6
___________________________________________________________________________________________
                                                                               2008-FO-0002

                   INDEPENDENT AUDITORS’ REPORT, CONTINUED

            financial management system requirements nor with federal information
            technology security requirements, including regulations for the
            safeguarding of personally identifiable information. The HECM program is
            growing rapidly, comprises almost 20 percent of the $905 million single
            family upfront premium collections and has resulted in over $500 million
            in HECM notes now assigned and being serviced by FHA. The balance of
            assigned notes is estimated by FHA to exceed $1 billion within one year.
            We believe this growth in a manually intensive control environment
            greatly increases the risk of material errors in financial reporting.

            FHA has issued a Request for Information from commercial vendors
            regarding the availability of existing reverse mortgage system solutions.

            HECM credit subsidy cash flow model needs enhancement

            FHA has developed a cash flow model to estimate the net present value
            of future HECM cash flows, which is recorded as a Liability for
            Guaranteed Loans in the Principal Financial Statements. This model
            contains projected cash flows for premiums, pre-foreclosure sales claims,
            mortgage note assignments, terminations, post-assignment drawdowns
            and terminated loan note recoveries. FHA uses the limited historical
            experience available and management assumptions to calculate the
            conditional rates for most of these complex HECM loan events. We noted
            significant discrepancies between projected and actual program events
            which may be caused by changes in interest rates and other external
            variables. We found management has not effectively documented its
            assessment of statistical correlations between these various
            macroeconomic variables that appear to be having a significant impact on
            the program’s experience, including house price appreciation, short term
            interest rates, and borrower characteristics including gender, age, and
            mobility patterns due to the limited historical experience for the program.
            FHA also had not effectively documented its sensitivity analysis of the
            model and did not have an effective process to document its conclusions
            regarding the results of its validation review and what changes to the
            models are needed to improve the model’s predictability. FHA has
            indicated that they are currently assessing new pricing and termination
            models, the results of which will improve future cash flow estimates.

            We also found that the model contained improper calculations relating to
            terminated note recoveries and was not compliant with federal accounting
            standards regarding OMB discounting requirements for cash flow models
            for direct loan and loan guarantee programs. FHA has adjusted the
            accompanying financial statements to reflect the material adjustments to
            the related Liability for Guaranteed Loans caused by these errors.

            FHA system security controls need to be strengthened

            FHA has not yet implemented a federal information security risk
            management framework in accordance with federal standards. FHA’s
            information system security officer did not have authority and processes




                                                7
___________________________________________________________________________________________
2008-FO-0002

                    INDEPENDENT AUDITORS’ REPORT, CONTINUED

             in place to ensure FHA system security meets federal and Departmental
             requirements. FHA program offices and system owners also did not fully
             understand their system security responsibilities due to an ineffective
             organizational authority, insufficient staff resources, and inadequate
             security training. FHA has also not yet resolved a number of system
             vulnerabilities that result in weakened controls over financial system data.

      Additional detail and the related recommendations for these findings are provided in
      Appendix A of this report. The full text of management’s response is included in
      Appendix B. We did not perform audit procedures on FHA’s written response to the
      significant deficiencies and material weaknesses and accordingly, we express no
      opinion on it. Our assessment of management’s response is included in Appendix C.
      The current status of prior year findings and recommendations is included in Appendix
      D.

      We also noted other less significant matters involving FHA’s internal control and its
      operation, which we have reported to the management of FHA in a separate letter, dated
      October 29, 2007.

      Compliance with Laws and Regulations

      The results of our tests of compliance with laws and regulations disclosed no instances
      of noncompliance that are required to be reported under Government Auditing
      Standards and OMB Bulletin No. 07-04, as described below. Providing an opinion on
      compliance with laws and regulations was not an objective of our audit and, accordingly,
      we do not express such an opinion.

      The HUD Office of the Chief Financial Officer and CFO Appropriation General Counsel
      are currently investigating potential Anti-Deficiency Act violations associated with the
      commitment limitation for FHA's General Insurance/Special Risk Fund programs. No
      final legal determination regarding these potential compliance matters have been made.

      Other Information

      The information in the Management’s Discussion and Analysis and Required
      Supplementary Information sections is not a required part of the Principal Financial
      Statements, but is supplementary information required by the Federal Accounting
      Standards Advisory Board and OMB Circular A-136, Financial Reporting Requirements.
      We have applied certain limited procedures, which consisted principally of inquiries of
      management regarding the methods of measurement and presentation of the
      supplementary information. However, we did not audit the information and express no
      opinion on it.

      With respect to the internal control objective relating to the performance measures
      reported in the Management’s Discussion and Analysis (MD&A), we obtained an
      understanding of the design of internal control relating to the existence and
      completeness assertions and determined whether they have placed in operation, as
      required by OMB Bulletin No. 07-04. Our procedures were not designed to provide an
      opinion on the effectiveness of FHA’s internal control over reported performance




                                                  8
___________________________________________________________________________________________
                                                                               2008-FO-0002

                     INDEPENDENT AUDITORS’ REPORT, CONTINUED

      measures, and, accordingly, we do not provide an opinion on the effectiveness of FHA’s
      internal control over these reported performance measures.

      Management Responsibilities

      Management is responsible for the information in the Annual Management Report,
      including the preparation of: (1) the Principal Financial Statements in conformity with
      accounting principles generally accepted in the United States of America, (2)
      Management’s Discussion and Analysis (including the performance measures), and (3)
      Required Supplementary Information. Management is also responsible for establishing,
      maintaining and assessing internal control to provide reasonable assurance that the
      broad control objectives of the Federal Managers Financial Integrity Act of 1982 (FMFIA)
      are met, ensuring that FHA’s financial management systems substantially comply with
      the Federal Financial Management Improvement Act of 1996 (FFMIA) and complying
      with applicable laws and regulations.

      Objectives, Scope and Methodology

      Our responsibility is to express an opinion on FHA’s Principal Financial Statements
      based on our audits. We conducted our audits in accordance with auditing standards
      generally accepted in the United States of America, the standards applicable to financial
      audits contained in Government Auditing Standards issued by the Comptroller General
      of the United States, and OMB Bulletin No. 07-04. Those standards and OMB Bulletin
      No. 07-04 require that we plan and perform the audit to obtain reasonable assurance
      about whether the Principal Financial Statements are free of material misstatement.

      An audit also includes examining, on a test basis, evidence supporting the amounts and
      disclosures in the financial statements, assessing the accounting principles used and
      significant estimates made by management, as well as evaluating the overall financial
      statement presentation. We believe our audits provide a reasonable basis for our
      opinion. In planning and performing our audits, we considered FHA’s internal control
      over financial reporting (internal control) by obtaining an understanding of FHA’s internal
      control, determined whether internal controls had been placed in operation, assessed
      control risk, and performed tests of controls in order to determine our auditing
      procedures for the purpose of expressing our opinion on the financial statements. We
      limited our internal control testing to those controls necessary to achieve the objectives
      described in OMB Bulletin No. 07-04 and Government Auditing Standards. We did not
      test all internal controls relevant to operating objectives as broadly defined by FMFIA,
      such as those controls relevant to ensuring efficient operations.

      Our audit procedures were not designed to test the requirements of OMB Bulletin No.
      07-04 relating to FFMIA which are not applicable to FHA. Compliance with FFMIA will be
      evaluated and reported on by the HUD Office of Inspector General (OIG) in connection
      with their audit of the consolidated financial statements of HUD. We limited our tests of
      compliance to the provisions described above and we did not test compliance with all
      laws and regulations applicable to FHA.




                                                  9
___________________________________________________________________________________________
2008-FO-0002

                     INDEPENDENT AUDITORS’ REPORT, CONTINUED




      Distribution

      This report is intended solely for the information and use of the HUD OIG, the
      management of HUD and FHA, OMB, the Government Accountability Office and
      Congress, and is not intended to be and should not be used by anyone other than these
      specified parties.




      Washington DC
      October 29, 2007




                                               10
___________________________________________________________________________________________
                                                                               2008-FO-0002

                                         Appendix A
                     Significant Deficiencies and Material Weaknesses


      In our report dated October 29, 2007, we described the results of our audits of the
      consolidated balance sheets of the Federal Housing Administration (FHA), a wholly
      owned government corporation within the United States Department of Housing and
      Urban Development (HUD), as of September 30, 2007 and 2006, and the related
      consolidated statements of net cost, changes in net position, and the combined
      statements of budgetary resources (Principal Financial Statements) for the years then
      ended. The objective of our audits was to express an opinion on these financial
      statements. In connection with our audits, we also considered FHA’s internal control
      over financial reporting and tested FHA’s compliance with certain provisions of
      applicable laws and regulations that could have a direct and material effect on its
      financial statements. The following presents additional detail on the internal control
      matters discussed in that report.

      1. A risk assessment and systems development plan needed for FHA’s
      Home Equity Conversion Mortgage systems and transaction controls.

      FHA’s systems for processing Home Equity Conversion Mortgage (HECM) transactions
      are not automatically integrated and require significant compensating manual controls to
      ensure the accuracy and reliability of financial information being reported in the general
      ledger. These application systems or databases are neither compliant with federal loan
      financial management system requirements nor with federal IT security requirements,
      including regulations for the safeguarding of personally identifiable information.

      FHA did not have a comprehensive documented program level risk assessment that
      evaluates the current HECM program environment and related infrastructure. An
      effective risk assessment, like a strategic plan, would document management’s
      expectations for the future of the program and assess the potential risks to FHA and
      HUD related to program management, lender monitoring and oversight, funding, fraud
      risks, business processes, internal controls and system requirements. FHA has
      expanded its Quality Assurance Division (QAD) lender reviews to evaluate compliance
      of lenders’ HECM loan endorsement processes, but does not document how these
      lender reviews correlate to the assessed program risks.

      FHA maintains a separate system for HECM loan, endorsement and premium billing
      data. Although the system is integrated with FHASL, we found no system-based or
      manual audit trail for authorization or review of premium billing adjustments.

      The following IT general control issues were also noted for the HECM endorsement and
      premium billing system:
         9 A configuration management plan was not in place.
         9 The application is not capable of generating audit logs.
         9 Interface agreements/memoranda of understanding were not in place for all
              systems that interface with HECM (i.e. FHA Connection, CHUMS and the
              premiums servicer).
         9 Inadequate segregation of duties (i.e. System Owner and System Security
              Administrator are the same individual for the system and two HECM developers
              have concurrent access to development and production)




                                                 11
___________________________________________________________________________________________
2008-FO-0002
                                       Appendix A
                Significant Deficiencies and Material Weaknesses, Cont’d



         9 System security vulnerabilities which are discussed for FHA as a whole in
           Finding 3.

      Requests for reverse mortgage note assignments are sent to an independent contractor
      for review, validation and processing. Acceptance of note assignments in the form of
      approval letters are sent to the lenders. These letters are included with other information
      in a claim request package which is sent by the lender to FHA for review, approval and
      claim payment determination. Data on approved claims are accumulated in an Access
      database. Information from each claim request package is separately entered onto a
      standard form for payment processing.

      Queries from the Access database are used to summarize payment transactions for
      monthly postings to the general ledger. FHA has extensive manual reconciliation
      procedures to ensure the accuracy and reliability of the aggregate balances of monthly
      transaction postings; however, FHA did not adequately document supervisory reviews of
      these reconciliations. During our audit of the September 30, 2007 balance of assigned
      HECM notes, UKW determined that FHA had not recorded the balance of approved and
      assigned notes for which lenders had not yet filed claims for insurance benefits.
      Management has elected not to record the corresponding $29 million adjustment to the
      Loans Receivable and Related Foreclosed Property, Net and Accounts Payable
      balances on the Principal Financial Statements. This unrecorded adjustment does not
      affect our opinion on those statements.

      Upon acceptance of the assigned note, FHA is responsible for future borrower advances
      or fixed payments, accruing interest and fees and termination of the note upon the
      borrower’s death, refinancing of the loan or sale of the home. The balance of
      outstanding notes held by FHA at September 30, 2007 exceeds $550 million and is
      expected to grow to over $1 billion in fiscal year 2008. FHA’s contractor uses a database
      to track borrower personal data, the note balance and summarizes interest and premium
      non-cash transactions and note recoveries for manual posting by FHA. The business
      processes related to note servicing were neither documented nor assessed as part of
      FHA’s OMB Circular A-123 management control documentation and annual assurance
      efforts. FHA also has manual controls over the processing of terminated note proceeds.
      FHA’s contractor has not performed a system controls audit of this database. This
      system is also not compliant with federal system requirements for loan programs.

      FHA’s HECM pilot program was introduced in 1989. The current systems and business
      processes were developed based on the anticipated minimal program activity at that
      time. Growth in the program was modest until 2001 when endorsements began growing
      in excess of 50 percent per year. The HECM program now comprises almost 20 percent
      of the $900 million in single family upfront premium collections. Current models project
      the future cash transactions required to be processed by FHA for the HECM program will
      exceed $45 billion over the next 30 years, without considering the effect of future
      endorsements.

      We believe this rate of growth in the number of transactions and the current volume of
      business being processed manually creates a risk that the current control structure will
      not be able to detect a material error in the financial statements. Management has




                                                  12
___________________________________________________________________________________________
                                                                               2008-FO-0002
                                       Appendix A
                Significant Deficiencies and Material Weaknesses, Cont’d


      represented to us that they consider $50 million as the materiality threshold for their
      assessment regarding the effectiveness of their controls.

      The Office of Single Family Housing and the FHA Comptroller have issued a Request for
      Information to identify potential vendors that can provide a cost effective web-based
      reverse mortgage management system.

      Recommendations to FHA’s Deputy Assistant Secretary for Finance and Budget to
      address the above in fiscal 2008 include:

      1a.    Coordinate with the Acting Deputy Assistant Secretary for Single Family Housing
             to compile and document a comprehensive program risk assessment of the
             HECM program based on anticipated program volume, and activity. (New)

      1b.    Coordinate with HUD’s Acting Chief Information Officer and the Acting Deputy
             Assistant Secretary for Single Family Housing to establish a comprehensive
             system functional requirements document in accordance with HUD guidance for
             the new HECM system based on anticipated future volumes of transactions.
             (New)

      1c.    Coordinate with HUD’s Acting Chief Information Officer to complete a full
             assessment of the Privacy Act requirements for the HECM notes database and
             its contractor. (New)

      1d.    Complete a full assessment of the effectiveness of the existing controls (including
             an Independent Type II review of the service provider under AICPA Statement on
             Auditing Standards No. 70, Service Organizations) over the notes database
             given the sensitivity of the data and the anticipated growth in reported assigned
             note balances and transactions. (New)

      1e.    Develop and implement automated system interfaces between the current HECM
             claims and notes systems and FHASL, if the new system(s) cannot be
             implemented timely. (New)

      2. HECM credit subsidy cash flow model needs enhancement

      Federal accounting standards require that the net liability related to federal loan
      guarantee programs be presented in the financial statements at the net present value of
      future cash flows. OMB guidance outlines stringent procedures to be followed by each
      agency in developing cash flow models to calculate the total cost of each program each
      year (credit subsidy cost) as well as the net present value of future cash flows, also
      known as the subsidy reestimate. FHA develops complex cash flow models in Excel
      using Visual Basic programming for each major FHA program area.

      As discussed above, FHA’s HECM systems and business processes were developed
      based on the anticipated program activity at that time. Growth in the program was
      modest until 2001 but endorsements have been growing in excess of 50 percent per
      year for the last five years. The current model now estimates $45 billion in undiscounted




                                                 13
___________________________________________________________________________________________
2008-FO-0002
                                       Appendix A
                Significant Deficiencies and Material Weaknesses, Cont’d


      future cash flows for the HECM program which represents 40 percent of the future cash
      flows for all existing FHA programs.

      Due to the unique programmatic aspects of reverse mortgages, FHA has developed a
      separate model for the HECM program. This model contains projected cash flows for
      premiums, pre-foreclosure sales claims, assignments, terminations, post-assignment
      borrower drawdowns and terminated note recoveries. FHA uses the limited prior policy
      years of historical experience and management assumptions to calculate the conditional
      event rates for use in the HECM cash flow model.

      FHA’s HECM program performance is extremely sensitive to certain macroeconomic
      factors including short term interest rates, house price appreciation, and borrower
      characteristics including gender, age, and mobility patterns. During our audit, we noted
      significant variances between projected and actual cash flows caused by recent changes
      in interest rates and its effect on assignments and premiums. We found that FHA did not
      provide us with fully documented analysis of these variances or the relationships
      between these external variables and program performance. We also found certain
      technical errors in the model, as discussed below. FHA is currently assessing new
      pricing and termination models, the results of which are expected to improve future cash
      flow estimates.

      Premiums
      Actual premium cash flows for FY2007 (annualized using March 31 data) were 12
      percent lower than projected in the prior year model (without considering the current
      cohort’s variance which was due to underestimated FY2006 endorsements). Variances
      in the earliest cohorts were significantly higher but not material overall. FHA’s FY2007
      validation review also noted this discrepancy but did not adequately investigate, analyze
      and explain the causes for this discrepancy to determine whether any corrections to the
      model were required. During our audit, UKW noted a 54 percent overstatement between
      the number of active HECM loans reported for the 1992-1999 cohorts in the model and
      the number of loans remitting premium payments to FHA.

      Conditional Termination Rates
      FHA uses a single variable for projecting pre-assignment terminations in the cash flow
      model, which includes loans terminating due to assignment, as well as voluntary (e.g.
      borrower relocation or refinancing) and involuntary (e.g. borrower death) termination.
      FHA has not fully documented any statistical correlations between macroeconomic
      factors and non-assignment related terminations to illustrate how these factors may
      impact future termination rate assumptions. FHA has not yet documented the impact of
      other recent studies on HECM program experience on the cash flow model. These
      studies, including one recently completed by HUD’s Office of Policy Development and
      Research to assist investors to assess the investment risk in reverse mortgage loans,
      found FHA’s termination data does not distinguish between voluntary termination (move-
      out) and involuntary termination (mortality or incapacitation) and that FHA’s models
      appear to underestimate terminations.

      Assignments
      Lenders may assign the HECM loan to FHA once the unpaid balance reaches 98
      percent of the calculated maximum claim amount as determined at loan endorsement.




                                                 14
___________________________________________________________________________________________
                                                                               2008-FO-0002
                                       Appendix A
                Significant Deficiencies and Material Weaknesses, Cont’d


      We noted actual assignments for FY2007 ($140 million annualized using March 31,
      2007 data) exceeded those projected in the FY2006 model ($80 million) by 75 percent.
      The FY2007 model may have corrected for some of this variance as it currently projects
      peak assignments to occur in policy year 7 whereas historically peak assignment years
      were around policy year 11. This dramatic shift is due to the low initial interest rates for
      loans endorsed in FY2004 to FY2006 and increasing variable interest rates, which are
      causing loans to reach 98 percent of their maximum claim amount much sooner. FHA
      has neither effectively documented whether better estimates of interest rate changes
      would have reduced these variances nor documented what other external factors (e.g.
      interest rates or the overall housing market) may impact actual assignment rates to FHA.

      Post-Assignment Terminations
      UKW also found that FHA does not use a separate post-assignment termination
      experience rate assumption in the cash flow model. Due to the lack of sufficient historical
      data on post-assignment terminations, FHA’s cash flow model assumes all assigned
      notes will be held for six years and uses a historical average of recovery/assignment
      ratios to calculate recovery cash flows. Incorporating historical termination data and
      other macroeconomic variables into this assumption may result in significant changes in
      recovery cash flow projections.

      FHA also uses a median long-term house price appreciation rate assumption of four
      percent within the model. This assumption is inconsistent with the house price
      appreciation projections published by Global Insights and used in FHA’s MMI forward
      mortgage model. FHA calculations indicated that the use of these lower assumptions will
      not materially impact the liability estimate. These calculations were not performed as
      part of a comprehensive sensitivity analysis.

      During the audit, management identified that the HECM model inappropriately included
      cash flows from existing assigned notes. FHA has adjusted the accompanying financial
      statements to reflect the $511 million increase to the related Liability for Guaranteed
      Loans caused by this error.

      Discounting
      The cash flow model improperly discounted cash flows to the beginning of the cohort
      year rather than the end of the financial reporting year. This error artificially reduced the
      present value of note recoveries relative to the value of assignments. FHA has adjusted
      the accompanying financial statements to reflect the $189 million reduction to the related
      Liability for Guaranteed Loans caused by this error.

      The HECM model was also not using OMB guidance relating to the use of budget
      assumptions for discount rates and actual discount rates for the 2001 – 2007 cohorts.
      FHA has adjusted the accompanying financial statements to reflect the $166 million
      reduction to the related Liability for Guaranteed Loans caused by this error.

      Credit Subsidy
      The cash flow model used the maximum claim amount rather than the cumulative
      amount of borrower drawdowns in its calculation of the credit subsidy rate. The model
      also did not use the Credit Subsidy Calculator (CSC2) for determining discount rates as
      required by OMB.




                                                   15
___________________________________________________________________________________________
2008-FO-0002
                                       Appendix A
                Significant Deficiencies and Material Weaknesses, Cont’d



      Validation
      FHA completed a validation review of the HECM cash flow model in June 2007 and
      noted discrepancies discussed above regarding premiums and assignments.
      Management’s conclusions did not indicate whether changes to the model or its
      assumptions were needed to address the findings. There is no evidence that the model
      or its assumptions for FY2007 were revised as a result of these validation findings. FHA
      also did not document its review of a sensitivity analysis in connection with the validation
      review.

      Accordingly, we believe the limited historical data available, the program’s rapid growth,
      the lack of sufficient documentation on how macroeconomic factors impact the various
      program events, the $866 million in aggregate modeling errors identified and the lack of
      sufficient analysis of program results combine to present more than a remote risk of
      material errors in financial reporting not being identified by FHA’s internal control over
      the credit subsidy cash flow model estimates. Management has represented to us that
      they consider $50 million as the materiality threshold for purposes of their assessment
      regarding the effectiveness of their controls.

      Recommendations to address the above include:

      2.   We recommend the Deputy Assistant Secretary for Finance and Budget request the
           Director of the Office of Evaluation to:

           a. Enhance its documentation on how specific assignment and termination rates
              are calculated and how macroeconomic projections are incorporated
           b. Document the results of the current pricing and termination model reviews and
              their effect on the methodology for calculating future cash flow reestimates
           c. Document any impact on the FY2007 HECM liability reestimate as a result of
              changes in the methodologies for calculating future cash flow estimates
           d. Document FHA’s conclusion on how recent HUD studies on HECM experience
              can be used to improve the calculation of the model’s calculated assumptions
           e. Establish new validation review procedures to compare the actual premium
              collections and post-assignment terminations to the balances in the model
           f. Document the use OMB approved CSC2 calculator in the model
           g. Ensure the propriety of the discounting algorithm used in next year’s model
           h. Reevaluate the assumption for calculating note recoveries to better reflect the
              “crossover risk” in the recovery cash flows
           i. Incorporate the use of disbursements into the calculation of the credit subsidy
              rate
           j. Incorporate sensitivity analysis variables directly within the cash flow model and
              document management’s assessment of the results of the sensitivity analysis.
           k. Develop a more formal process for documenting management’s conclusions
              regarding required model modifications as a result of the annual validation
              process. (New)




                                                  16
___________________________________________________________________________________________
                                                                               2008-FO-0002
                                       Appendix A
                Significant Deficiencies and Material Weaknesses, Cont’d


      3. FHA system security controls need improvement.

      FHA has not yet implemented a federal information security risk management framework
      required by federal policy. The framework, as defined by the National Institute for
      Standards and Technology (NIST), is a risk-based approach to security control selection
      and specification. It consists of information security actions, processes, roles, and
      activities that consider effectiveness, efficiency, and constraints due to applicable federal
      laws, directives, executive orders, policies, standards, and HUD regulations.
      FHA’s information system security officer (security officer) did not have the management
      authorities and processes necessary to ensure that information security within FHA
      systems was aligned with business objectives consistent with Federal Information
      Security Management Act (FISMA) and HUD requirements.
      Misalignment between FHA management authorities and HUD Information Technology
      (IT) Security Policy resulted in poor implementation of information security controls that
      protect FHA’s applications and data. Further, FHA program offices and system owners
      did not fully understand their various system security responsibilities due in part to a lack
      of proper organizational authorities and personnel resources. Without this framework in
      place, FHA management cannot ensure that its systems, data, and assets are
      adequately protected against theft, loss, or destruction.

      HUD IT Security Policy - Handbook 2400.25, REV-1, establishes the information security
      policy for HUD. The policy prescribes responsibilities, practices, and conditions that
      directly or indirectly promote security in the development, operation, maintenance, and
      support of all HUD IT resources.

      In addition, the HUD IT Security Policy - Handbook 2400.25, REV-1, defines “system
      owners” as individuals who use IT to help fulfill the business requirements necessary to
      achieve the mission needs within their program area of responsibility and are
      responsible for the successful operation of IT systems within their program area. These
      designated owners are ultimately accountable for the security of the IT systems and
      programs under their control.

      FHA has not yet corrected known IT security vulnerabilities and updated the required
      security documents. FHA program area staff indicated that they did not have the staff or
      contractor resources to perform the needed tasks to resolve the information security
      weaknesses. Risks to its data will continue to exist until funding to correct the
      vulnerabilities is available.
      FHA management has indicated that as of September 30, 2007 they have made
      progress on addressing the system deficiencies previously identified in the Plans of
      Actions and Milestones for 36 major Housing and FHA systems. FHA management has
      stated that the number of open system deficiencies has been reduced from 1,116 in July
      2007 to 498 at September 30, 2007 for a 55 percent reduction. Additionally, FHA has
      stated that over 75 percent of the security documents for Housing and FHA have been
      updated to meet current federal standards. HUD OIG has indicated that they have not
      evaluated the support for the closing of the vulnerabilities or the updated security
      documents, but will do so in fiscal year 2008.




                                                   17
___________________________________________________________________________________________
2008-FO-0002
                                       Appendix A
                Significant Deficiencies and Material Weaknesses, Cont’d


      While FHA had made progress in closing out open vulnerabilities, it could not ensure
      that all systems would be adequately protected in the near term and that the high impact
      vulnerabilities were being closed out. FHA is working with HUD’s Office of the Chief
      Information Officer’s Office of Information Technology Security Information Assurance
      and Compliance to develop a schedule of information technology security activities.
      Identified tasks that remain include:
              x   Update risk assessments
              x   Conduct security training and awareness
              x   Conduct annual self-assessments
              x   Update security plans and contingency plans
              x   Resolve all “plan of actions and milestones” weaknesses or create risk
                  acceptance plans.

      FHA program management noted that funding for most of its systems had been limited
      to operations and maintenance for several years and that no development money had
      been available for these systems. This condition was due to overall funding issues
      regarding HUD’s working capital fund, which also impacted FHA. FHA saw a reduction
      in funding from $71.3 million in fiscal year 2004, which included $41.7 million for
      development, to $43.4 million in fiscal year 2007, which included $7.2 million for
      development.

      With insufficient funding for all of its needs in fiscal year 2007, FHA decided to fund
      basic operations and maintenance and critical business needs and to freeze funding for
      development activity to ensure that current systems were operational. As FHA
      considered information security a development activity, it did not have the funding
      necessary to resolve its many outstanding information security vulnerabilities.

      The lack of information security funding impacts the level of effort and quality of an
      individual application’s security documentation, as well as the ability to engage the
      resources (i.e. staff) needed to close out known open information security vulnerabilities.

      Details and Recommendations can be found in a separate OIG audit report.1

      User Access
      In prior years, OIG recommended that HUD develop an action plan to fully implement
      the HUD Online User Registration System to ensure that all user data are tracked and
      require system administrators to register users and their access level into this database.
      In response, HUD implemented the Centralized HUD Account Management Process
      (CHAMP) on January 31, 2007 to serve as a data repository and a workflow
      management component of the service desk to ensure requests are forwarded in the
      proper order to all organizations that have a part in approving or assigning user account
      rights and privileges.



      1
       Audit Report No. 2008-DP-0002, Review of FHA Controls Over Its Information Technology Resources,
      dated October 31, 2007




                                                      18
___________________________________________________________________________________________
                                                                               2008-FO-0002
                                       Appendix A
                Significant Deficiencies and Material Weaknesses, Cont’d


      During FY2007, FHA validated its current authorized user list for major applications
      (including FHASL) and provided these user lists to OCIO to incorporate into CHAMP.
      FHA has also begun to record change requests through CHAMP.

      OCIO has developed interim procedures to reconcile CHAMP information with the
      database that contains background investigation data for all employees and contractors.
      This reconciliation process is intended to identify users with potentially unauthorized or
      inappropriate access levels to HUD’s systems (e.g. users granted above-read access
      without the appropriate background check). However, the reconciliation is a tedious
      manual process that cannot identify all users because CHAMP does not contain all user
      data including legacy data. As a result, some unauthorized users may escape detection.

      Details and Recommendations can be found in a separate OIG audit report.2




      2
       Audit Report No. 2007-DP-0004, Fiscal Year 2006 Review of Information Systems In Support of the
      Financial Statement Audits dated February 22, 2007




                                                      19
___________________________________________________________________________________________
2008-FO-0002




                      (THIS PAGE LEFT BLANK INTENTIONALLY)




                                            20
___________________________________________________________________________________________
                                                                               2008-FO-0002
                                      Appendix B
                               Management’s Response




                                            21
___________________________________________________________________________________________
2008-FO-0002
                                      Appendix B
                               Management’s Response




                                            22
___________________________________________________________________________________________
                                                                               2008-FO-0002
                                      Appendix B
                               Management’s Response




                                            23
___________________________________________________________________________________________
2008-FO-0002
                                      Appendix B
                               Management’s Response




                                            24
___________________________________________________________________________________________
                                                                               2008-FO-0002
                                      Appendix B
                               Management’s Response




                                            25
___________________________________________________________________________________________
2008-FO-0002
                                      Appendix B
                               Management’s Response




                                            26
___________________________________________________________________________________________
                                                                               2008-FO-0002
                                      Appendix B
                               Management’s Response




                                            27
___________________________________________________________________________________________
2008-FO-0002
                                      Appendix B
                               Management’s Response




                                            28
___________________________________________________________________________________________
                                                                               2008-FO-0002
                                      Appendix B
                               Management’s Response




                                            29
___________________________________________________________________________________________
2008-FO-0002
                                      Appendix B
                               Management’s Response




                                            30
___________________________________________________________________________________________
                                                                               2008-FO-0002
                                      Appendix B
                               Management’s Response




                                            31
___________________________________________________________________________________________
2008-FO-0002
                                      Appendix B
                               Management’s Response




                                            32
___________________________________________________________________________________________
                                                                               2008-FO-0002
                                       Appendix C
                    UKW’s Assessment of Management’s Response

      UKW has obtained and reviewed FHA management’s response to the findings and
      recommendations made in connection with our audit of FHA’s 2007 Principal Financial
      Statements, which is included as Appendix B. We did not perform audit procedures on
      FHA’s written response to the significant deficiencies and material weaknesses and
      accordingly, we express no opinion on it. Our assessment of management’s responses
      is discussed below.

      Assessment of management’s response to significant deficiency (material
      weakness) No. 1:

      We appreciate management’s concern over the expression of the HECM internal
      controls as a material weakness. We believe that Statement of Auditing Standards
      (SAS) No. 112, Communicating Internal Control Related Matters Identified in an Audit,
      was developed to help auditors proactively identify and report risks to reliable financial
      reporting rather than waiting for actual errors to occur before reporting the weaknesses
      to management. SAS 112 states: “The significance of a control deficiency depends on
      the potential for a misstatement, not on whether a misstatement actually has occurred.
      Accordingly, the absence of identified misstatement does not provide evidence that
      identified control weaknesses are not significant deficiencies or material weaknesses.”

      We acknowledge that the classification of this matter as a material weakness is a matter
      of professional judgment and is not clear cut. We have conducted several discussions
      with management to clarify the definition of materiality as it related to management
      assertions and assessment of materiality for evaluating internal controls. However, we
      believe the factors described in the finding provide a reasonable basis for our
      determination.

      We believe that the first steps have been undertaken for a long term solution, but we do
      not believe the recommendations are unclear and are concerned that FHA has not
      committed to implementing all or any of the proposed recommendations which are
      aimed at mitigating the control risks for the short term and enhancing the effectiveness
      of the implementation of any new or modified HECM systems.

      A comprehensive program risk assessment should document the anticipated program
      environment in the near term and the resource requirements needed to support its
      needs. In a manually intensive business process environment, this assessment should
      focus on documenting how FHA can ensure it has adequate personnel to ensure the
      HECM transactions related to endorsements, note assignments, borrower payments,
      and note terminations can be recorded timely and accurately with the anticipated
      significant increases in transaction volume. OMB Circular A-130, Management of
      Federal Information Resources, states:

             Establish oversight mechanisms that require periodic review of
             information systems to determine how mission requirements might have
             changed, and whether the information system continues to fulfill ongoing
             and anticipated mission requirements. These mechanisms must also
             require information regarding the future levels of performance,
             interoperability, and maintenance necessary to ensure the information
             system meets mission requirements cost effectively;




                                                 33
___________________________________________________________________________________________
2008-FO-0002
                                       Appendix C
                    UKW’s Assessment of Management’s Response

      A functional systems requirement document is a technical design of a system which
      must consider the future systems operational and control environment to be effective or
      else the new system, once implemented, may not be capable of handling the transaction
      or user volume required.

      We were not provided or made aware of the management review of the SMART system
      referred to by either the contractor or FHA but, based on the description provided, this
      review does not appear to provide the written audit assurance on the general systems
      and privacy controls required by Feferal regulation.

      Implementing automated interfaces with FHASL could significantly reduce the amount of
      duplicated data entry now performed and reduce the risk of data error.

      Assessment of management’s response to significant deficiency (material
      weakness) No. 2:

      As with the first finding above, we believe there are a number of factors that combine to
      lead to our assessment of the HECM cash flow model reestimate process as a material
      weakness. As indicated by management’s response, there is a tremendous amount of
      effort currently underway in evaluating the assumptions of the HECM program now that
      there is more historical data for analysis. We look forward to seeing this additional
      information incorporated into the documentation and analysis of future HECM subsidy
      reestimates.

      However, the nature and extent of management’s analysis and documentation provided
      for audit review in support of its HECM program FY2007 reestimate calculation had not
      significantly changed from prior years despite the growth in the program and is not as
      extensive as that provided in support of the other FHA single family or multifamily
      program subsidy models. We believe insufficient analysis was a contributing factor to the
      three material technical errors in the model. The rapid growth in the program volume
      combined with changes in interest rates and the decline in the overall housing market
      complicates effective analysis of the model’s results. This greatly increases the risk for
      errors in the estimation methodology not being detected timely.

      FHA’s responses to our recommendations do not fully address our concerns as
      documented. Recommendation 2c addresses documenting whether there would be any
      monetary impact to the current year liability if the enhancements to the models were
      implemented for FY2007. While the impact of technical model changes is normally
      documented in FHA’s decomposition process, significant changes in liabilities caused
      solely by changes in the estimation methodology may be relevant to the readers of the
      FY2008 financial statements.

      Recommendation 2e focuses on additional tests to be performed as part of the annual
      validation review whereby premium data from the HECM premium billing system (F12)
      and actual post-assignment terminations from SMART can be compared to the prior
      year’s projected volume to enhance management’s assessment of the models
      performance.




                                                 34
___________________________________________________________________________________________
                                                                               2008-FO-0002
                                       Appendix C
                    UKW’s Assessment of Management’s Response

      Recommendation 2f is to incorporate the use of the CSC2 calculator into the complete
      model documentation submitted for audit to enhance our review and assessment of
      compliance with OMB policy.

      Recommendation 2j is aimed at obtaining a documented sensitivity analysis similar to
      that already generated for each of the four single family and eighteen multifamily risk
      categories. FHA should incorporate this sensitivity analysis functionality directly into the
      cash flow models for routine analysis by management and auditors.

      Recommendation 2k is to enhance the linkage between the variances observed and
      conclusions drawn in the annual validation review, management’s overall conclusions
      regarding the effectiveness of the model and the decisions regarding any enhancements
      needed to the model as documented in the Deputy Assistant Secretary for Finance and
      Budget (DAS) memo.

      We have clarified the language in our recommendations in response to management’s
      comments related to recommendations 2c, 2e, 2f and 2k.

      Assessment of management’s response to significant deficiency No. 3:

      While management has concurred with the finding, their response does not provide
      specific information on the actions taken to implement a risk-based management
      framework. Management has also not outlined the plan for correcting the remaining
      system vulnerabilities, or indicated whether the designated Information System Security
      Officers (ISSOs) will be responsible for completing the remaining tasks (i.e. risk
      assessment updates, self assessments, security plan updates, etc.).




                                                  35
___________________________________________________________________________________________
2008-FO-0002




                      (THIS PAGE LEFT BLANK INTENTIONALLY)




                                            36
___________________________________________________________________________________________
                                                                               2008-FO-0002
                                       Appendix D
                  Status of Prior Year Findings and Recommendations
      Our assessment of the current status of reportable conditions and material weaknesses
      identified in prior year audits is presented below:

   Prior Finding/Recommendation                  Type            Fiscal Year 2006 Status
   1a. FHA’s Assistant Secretary for        2006            Resolved. FHA has incorporated
   Housing should implement interim         Reportable      Headquarters and field funds
   Headquarters and field control           Condition       control policies and procedures.
   policies and procedures to ensure
   that effective funds control is
   maintained until full implementation
   and integration of the subsidiary
   application systems is accomplished
   1b. FHA’s Assistant Secretary for                        Resolved. FHA has deobligated
   Housing should effectively coordinate                    about $107,169,096 of the
   with HUD’s Office of the Chief                           $107,179, 596 expired or inactive
   Procurement Officer to ensure                            contracts in FY 2007. The
   expired or inactive contracts are                        remaining $7,500 could not be
   promptly closed out and that any                         deobligated due to legal issues.
   excess funds, including the                              UHY did not identify any material
   $107,176,596 identified in the                           expired or inactive contracts to be
   FY2006 audit, are deobligated timely                     deobligated in FY 2007.
   2a. The HUD Chief Information            2006            Issue has been substantially
   Officer should ensure that the Deputy    Reportable      resolved by FHA. However,
   Chief Information Officer for Security   Condition       assurance over access security
   maintain current and complete                            cannot be obtained without fully
   records of User Access Request                           implementing recommendation 2b.
   (UAR) forms for all FHA application                      Remaining issues are included in
   systems.                                                 the FY 2007 Management Letter
   2b. The FHA Comptroller should                           See Finding No. 3 Partially
   ensure that each FHA application                         resolved. FHA management has
   owner reviews and updates their user                     updated their user access lists for
   access list annually and reconciles                      recording in CHAMPS. The OCIO
   their records with the ADP Security                      plan is to migrate all the data to the
   Office. The UAR forms should be                          new CHAMPS repository for central
   electronically stored by the HITS                        user access by September 2008.
   contractor in a non-editable format in                   Our remaining recommendations to
   the Lotus Notes environment.                             FHA are included in the FY2007
                                                            Management Letter.
   3a. The HUD Chief Information            2006            Resolved. The disaster recovery
   Officer should ensure that the           Reportable      backup plans were successfully
   disaster recovery backup plans           Condition       tested in March 2007 and again in
   maintained by the HITS contractor                        September 2007.
   are updated to include FHASL. The
   backup plans should also be tested to
   ensure data can be restored within
   the contractually required timeframe.




                                                 37
___________________________________________________________________________________________
2008-FO-0002




                      (THIS PAGE LEFT BLANK INTENTIONALLY)




                                            38
             2008-FO-0002




 PRINCIPAL
 FINANCIAL
STATEMENTS




   39
2008-FO-0002




               (THIS PAGE LEFT BLANK INTENTIONALLY)




                              40
                                                                                                          2008-FO-0002


                             FEDERAL HOUSING ADMINISTRATION
             (AN AGENCY OF THE DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT)
                               CONSOLIDATED BALANCE SHEETS
                                 As of September 30, 2007 and 2006
                                        (Dollars in Millions)
                                                                      2007                                   2006
ASSETS
  Intragovernmental
    Fund Balance with U.S. Treasury (Note 3)                                                 $    9,559 $     10,568
    Investments (Note 4)                                                                         22,481       22,012
    Other Assets (Note 7)                                                                             4           24
  Total Intragovernmental                                                                        32,044       32,604

  Investments (Note 4)                                                                              121           98
  Accounts Receivable, Net (Note 5)                                                                 119          168
  Loans Receivable and Related Foreclosed Property, Net (Note 6)                                  4,738        4,283
  Other Assets (Note 7)                                                                             143          140
TOTAL ASSETS                                                                                 $   37,165 $     37,293


LIABILITIES
  Intragovernmental
    Borrowings from U.S. Treasury (Note 9)                                                        4,573        6,258
    Other Liabilities (Note 10)                                                                   3,657        2,486
  Total Intragovernmental                                                                         8,230        8,744

  Accounts Payable (Note 8)                                                                         385          396
  Loan Guarantee Liability (Note 6)                                                               7,431        3,482
  Debentures Issued to Claimants (Note 9)                                                            70           95
  Other Liabilities (Note 10)                                                                       474          577
TOTAL LIABILITIES                                                                                16,590       13,294


NET POSITION
  Unexpended Appropriations (Note 16)                                                               544          594
  Cumulative Results of Operations                                                               20,031       23,405
TOTAL NET POSITION                                                                               20,575       23,999


TOTAL LIABILITIES AND NET POSITION                                                           $   37,165 $     37,293

                          The accompanying notes are an integral part of these statements.




                                                    41
2008-FO-0002



                                    FEDERAL HOUSING ADMINISTRATION
            (AN AGENCY OF THE DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT)
                                CONSOLIDATED STATEMENTS OF NET COST
                                For the periods ended September 30, 2007 and 2006
                                                (Dollars in Millions)
                                                                                             2007            2006
MMI/CMHI PROGRAM COSTS
  Intragovernmental Gross Costs (Note 12)                                           $            284     $       387
  Less: Intragovernmental Earned Revenue (Note 13)                                             1,299           1,334
  Intragovernmental Net Costs                                                                 (1,015)          (947)


  Gross Costs with the Public (Note 12)                                                        4,700           1,135
  Less: Earned Revenue from the Public (Note 13)                                                    24              94
  Net Costs with the Public                                                                    4,676           1,041
NET MMI/CMHI PROGRAM COST (SURPLUS)                                                 $          3,661     $          94


GI/SRI PROGRAM COSTS
  Intragovernmental Gross Costs (Note 12)                                           $            141     $       147
  Less: Intragovernmental Earned Revenue (Note 13)                                               107             188
  Intragovernmental Net Costs                                                                       34           (41)


  Gross Costs with the Public (Note 12)                                                       (1,235)         (2,049)
  Less: Earned Revenue from the Public (Note 13)                                                    91              85
  Net Costs with the Public                                                                   (1,326)         (2,134)
NET GI/SRI PROGRAM COST (SURPLUS)                                                             (1,292)         (2,175)


NET COST (SURPLUS) OF OPERATIONS                                                    $          2,369     $    (2,081)



                          The accompanying notes are an integral part of these statements.




                                                     42
                                                                                                              2008-FO-0002


                                       FEDERAL HOUSING ADMINISTRATION
             (AN AGENCY OF THE DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT)
                      CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION
                                 For the periods ended September 30, 2007 and 2006
                                                 (Dollars in Millions)


                                                      2007                2007                2006              2006
                                                    Cumulative                             Cumulative
                                                    Results of         Unexpended          Results of        Unexpended
                                                    Operations        Appropriations       Operations       Appropriations


BEGINNING BALANCES                              $          23,405 $               594 $         22,546 $                609


BUDGETARY FINANCING SOURCES
 Appropriations Received (Note 16)                               -               1,252                  -              1,281
 Other Adjustments (Note 16)                                     2               (119)                  -               (83)
 Appropriations Used (Note 16)                                415                (415)           1,178              (1,178)
 Transfers-Out (Note 15 and Note 16)                       (1,014)               (768)           (731)                  (35)

OTHER FINANCING SOURCES
 Transfers-Out (Note 15)                                    (445)                      -       (1,692)                       -
 Imputed Financing (Note 12)                                   37                      -             23                      -
TOTAL FINANCING SOURCES                                    (1,005)                (50)         (1,222)                  (15)


NET (COST) SURPLUS OF OPERATIONS                           (2,369)                     -         2,081                     -


ENDING BALANCES                                 $          20,031 $               544 $         23,405 $                594




                           The accompanying notes are an integral part of these statements.




                                                      43
2008-FO-0002


                              FEDERAL HOUSING ADMINISTRATION
              (AN AGENCY OF THE DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT)
                        COMBINED STATEMENT OF BUDGETARY RESOURCES
                                For the period ended September 30, 2007
                                           (Dollars in Millions)

                                                                   2007                 2007              2007
                                                                 Budgetary          Non-Budgetary         Total
  BUDGETARY RESOURCES
  Unobligated Balance, brought forward, October 1            $         22,390 $                 7,032 $       29,422
  Recoveries of prior year unpaid obligations                              89                     124            213
  Budget Authority:
     Appropriations                                                       1,252                    2              1,254
     Borrowing authority                                                     15                  602                617
     Spending authority from offsetting collections (gross):
       Earned
          Collected (Note 18)                                           2,057                    9,104        11,161
          Change in receivables from Federal sources                       56                       42             98
       Change in unfilled customer order w/o advance                        -                       (4)            (4)
  Nonexpenditure transfers net (Note 19)                                (609)                         -         (609)
  Permanently not available                                             (291)                  (2,315)        (2,606)
  TOTAL BUDGETARY RESOURCES                                  $         24,959 $                14,587 $        39,546

  STATUS OF BUDGETARY RESOURCES
  Obligations incurred, Direct (Note 20)                    $           2,116 $                10,510 $       12,626
  Unobligated balance-Apportioned                                         187                     993          1,180
  Unobligated balance-Not available                                    22,656                   3,084         25,740
  TOTAL STATUS OF BUDGETARY RESOURCES                       $          24,959 $                14,587 $       39,546

  Change in Obligated Balances
  Obligated balance, net:
     Unpaid obligations, brought forward, October 1       $                 980 $               1,377 $           2,357
     Uncollected customer payments from Federal sources,                  (207)                    (7)            (214)
     brought forward, October 1
  Total, unpaid obligated balance, brought forward, net                    773                1,370             2,143
  Obligations incurred (Note 20)                                         2,116               10,510            12,626
  Gross outlays                                                        (2,053)             (10,420)          (12,473)
  Recoveries of prior-year unpaid obligations, actual                     (89)                (124)             (213)
  Change in uncollected customer payments-Federal sources                 (56)                 (38)              (94)
  Total, unpaid obligated balance, net, end of period                      691                1,298             1,989
  Obligated balance, net, end of period:
     Unpaid obligations                                                     954                 1,342              2,296
     Uncollected customer payments from Federal sources                   (263)                  (44)              (307)
  Total, unpaid obligated balance, net, end of period                       691                 1,298             1, 989
  Net outlays:
     Gross outlays                                                 2,053                 10,420                12,473
     Offsetting collections (Note 18)                            (2,057)                (9,104)              (11,161)
      Less: Distributed offsetting receipts                        2,759                      -                 2,759
  NET OUTLAYS                                             $      (2,763) $                1,316 $             (1,447)
                             The accompanying notes are an integral part of these statements.




                                                            44
                                                                                                            2008-FO-0002


                            FEDERAL HOUSING ADMINISTRATION
            (AN AGENCY OF THE DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT)
                      COMBINED STATEMENT OF BUDGETARY RESOURCES
                              For the period ended September 30, 2006
                                         (Dollars in Millions)

                                                                  2006                 2006               2006
                                                                Budgetary          Non-Budgetary          Total
BUDGETARY RESOURCES
Unobligated Balance, brought forward, October 1            $          23,602 $                 5,891 $        29,493
Recoveries of prior year unpaid obligations                               97                       6             103
Budget Authority:
   Appropriations                                                        1,281                     -              1,281
   Borrowing authority                                                       9                   888                897
   Spending authority from offsetting collections (gross):
     Earned                                                                -                        -               -
        Collected (Note 18)                                            2,636                   11,470          14,106
        Change in receivables from Federal sources                      (55)                     (46)           (101)
     Change in unfilled customer order w/o advance                         -                        -               -
Nonexpenditure transfers net (Note 19)                                     -                        -               -
Permanently not available                                              (152)                  (2,186)         (2,338)
TOTAL BUDGETARY RESOURCES                                  $          27,418 $                 16,023 $        43,441

STATUS OF BUDGETARY RESOURCES
Obligations incurred, Direct (Note 20)                    $            5,028 $                 8,990 $        14,018
Unobligated balance-Apportioned                                          161                   2,132           2,293
Unobligated balance-Not available                                     22,229                   4,901          27,130
TOTAL STATUS OF BUDGETARY RESOURCES                       $           27,418 $                16,023 $        43,441

Change in Obligated Balances
Obligated balance, net:
   Unpaid obligations, brought forward, October 1       $                1,067 $               1,263 $            2,330
   Uncollected customer payments from Federal sources,                   (262)                  (52)              (314)
   brought forward, October 1
Total, unpaid obligated balance, brought forward, net                    805                    1,211           2,016
Obligations incurred (Note 20)                                         5,028                    8,990          14,018
Gross outlays                                                        (5,018)                  (8,871)        (13,889)
Recoveries of prior-year unpaid obligations, actual                     (97)                       (6)          (103)
Change in uncollected customer payments-Federal sources                   55                       46             101
Total, unpaid obligated balance, net, end of period                      773                    1,370           2,143
Obligated balance, net, end of period:
   Unpaid obligations                                                      980                 1,377              2,357
   Uncollected customer payments from Federal sources                    (207)                    (7)             (214)
Total, unpaid obligated balance, net, end of period                        773                 1,370              2,143
Net outlays:
   Gross outlays                                                 5,018                  8,871                  13,889
   Offsetting collections (Note 18)                            (2,636)               (11,470)                (14,106)
    Less: Distributed offsetting receipts                          677                      -                     677
NET OUTLAYS                                             $        1,705                 (2,599 ) $               (894)
                           The accompanying notes are an integral part of these statements.




                                                           45
2008-FO-0002


                         NOTES TO FINANCIAL STATEMENTS
                                             September 30, 2007

Note 1. Significant Accounting Policies

Entity and Mission

The Federal Housing Administration (FHA) was established under the National Housing Act of 1934 and became
a wholly owned government corporation in 1948 subject to the Government Corporation Control Act, as
amended. While FHA was established as a separate Federal entity, it was subsequently merged into the
Department of Housing and Urban Development (HUD) when that department was created in 1965. FHA does
not maintain a separate staff or facilities; its operations are conducted, along with other Housing activities, by
HUD organizations. FHA is headed by HUD's Assistant Secretary for Housing/Federal Housing Commissioner,
who reports to the Secretary of HUD. FHA's activities are included in the Housing section of the HUD budget.

FHA administers a wide range of activities to make mortgage financing more accessible to the home-buying
public and to increase the availability of affordable housing to families and individuals, particularly to the nation's
poor and disadvantaged. FHA insures private lenders against loss on mortgages, which finance Single Family
homes, Multifamily projects, health care facilities, property improvements, manufactured homes, and reverse
mortgages (also referred to as HECM). The objectives of the activities carried out by FHA relate directly to
developing affordable housing.

FHA categorizes its activities as Single Family, Multifamily, or Title I. Single Family activities support initial or
continued home ownership; Multifamily activities support high-density housing and medical facilities; Title I
activities support manufactured housing and property improvement.

FHA organizes its operations into two overall program types – MMI/CMHI and GI/SRI. These program types are
composed of four major funds. The Mutual Mortgage Insurance fund (MMI), FHA's largest fund, provides basic
Single Family mortgage insurance and is a mutual insurance fund, whereby mortgagors, upon non-claim
termination of their mortgages, share surplus premiums paid into the MMI fund that are not required for operating
expenses and losses or to build equity. The Cooperative Management Housing Insurance fund (CMHI), another
mutual fund, provides mortgage insurance for management-type cooperatives. The General Insurance fund (GI),
provides a large number of specialized mortgage insurance activities, including insurance of loans for property
improvements, cooperatives, condominiums, housing for the elderly, land development, group practice medical
facilities, nonprofit hospitals, and reverse mortgages. The Special Risk Insurance fund (SRI) provides mortgage
insurance on behalf of mortgagors eligible for interest reduction payments who otherwise would not be eligible
for mortgage insurance.

Basis of Accounting

The principal financial statements are presented in conformity with accounting principles generally accepted in
the United States of America (GAAP) applicable to Federal agencies as promulgated by the Federal Accounting
Standards Advisory Board (FASAB). The recognition and measurement of budgetary resources and their status
for purposes of preparing the Combined Statements of Budgetary Resources, is based on concepts and guidance
provided by Office of Management and Budget (OMB) Circular A-11, Preparation, Submission, and Execution of
the Budget. The format of the SBR is based on the SF 133, Report on Budget Execution and Budgetary
Resources.




                                                     46
                                                                                                         2008-FO-0002

Basis of Consolidation

The accompanying principal financial statements include all Treasury Account Fund Symbols (TAFSs)
designated to FHA, which consist of two principal program funds, six revolving funds, two general funds and a
deposit fund. All inter-fund accounts receivable, accounts payable, transfers in and transfers out within these
TAFSs have been eliminated to prepare the consolidated balance sheets, statements of net cost, and statements of
changes in net position. The statement of budgetary resources is prepared on a combined basis as allowed by
OMB Circular A-136, Financial Reporting Requirements.

Fund Balance with U.S. Treasury

Fund balance with U.S. Treasury consists of amounts collected and available to fund payments for expenses and
of amounts collected but unavailable until authorizing legislation is enacted (see Notes 2 and 3).

Investments

FHA investments include investments in U.S. Treasury securities, Multifamily risk sharing debentures and
investments in private-sector entities where FHA is a member with other parties under the Accelerated Claims
Disposition Demonstration program (see Note 4).

Under current legislation, FHA invests available MMI/CMHI capital reserve fund resources in excess of its
current needs in non-marketable market-based U.S. Treasury securities. These U.S. Treasury securities may not
be sold on public securities exchanges, but do reflect prices and interest rates of similar marketable U.S. Treasury
securities. Investments are presented at acquisition cost net of unamortized premium or discount. Amortization
of the premium or discount is recognized monthly in interest income on investments in U.S. Treasury securities
on the effective interest rate basis.

The Departments of Veterans Affairs and Housing and Urban Development Appropriations Act of 1999 and
Section 601 of the Independent Agencies Act of 1999 provide FHA with new flexibility in reforming its Single
Family claims and property disposition activities. In accordance with these Acts, FHA implemented the
Accelerated Claims Disposition Demonstration program (the 601 program) to shorten the claim filing process,
obtain higher recoveries from its defaulted guaranteed loans, and support the Office of Housing’s mission of
keeping homeowners in their home. To achieve these objectives, FHA transfers assigned mortgage notes to
private sector entities in exchange for cash and equity interest. The servicing and disposition of the mortgage
notes are performed by the private-sector entities whose primary mission is dedicated to these types of activity.
With the transfer of assigned mortgage notes under the 601 program, FHA obtains ownership interest in the
private-sector entities. This level of ownership interest enables FHA to exercise significant influence over the
operating and financial policies of the entities. Accordingly, to comply with the requirement of Opinion No. 18
issued by the Accounting Principles Board (APB 18), FHA uses the equity method of accounting to measure the
value of its investments in these entities. The equity method of accounting requires FHA to record its investments
in the entities at cost initially. Periodically, the carrying amount of the investments is adjusted for cash
distributions to FHA and for FHA’s share of the entities’ earnings or losses.

Multifamily Risk Sharing Debentures [Section 542(c)] is a program available to lenders. The lender shares the
risk in a property by issuing debentures for claim amount paid by FHA on defaulted insured loans. HUD must
approve FHA’s participation in the risk sharing program and determines the portion of risk FHA assumes. If
FHA’s risk is over 50%, HUD must review and approve the underwriting standards, terms, and conditions of the
loan. If the loan defaults, the lender has 75 days to file a claim with FHA. FHA then pays the lender the initial
settlement. The initial settlement is the Unpaid Principal Balance (UPB) and interest at the note rate from the date
of the default to the date of the initial settlement. On the settlement date the lender issues FHA a debenture for the
amount of the settlement at the note rate (determined by the U.S. Treasury) thus sharing the risk in the property.
The percentage of risk for each party is stated in the debenture. Interest is accrued monthly and is paid on the




                                                     47
2008-FO-0002

anniversary date of the initial settlement. Only interest payments are required. The term of the debenture is 5
years. The debenture can be redeemed early if the property is sold. The lender will be paid their percentage of
risk sharing from the net proceeds of the sale of the property after adjustments for escrows, reserve for placement,
and interest on debenture, hazard insurance and property repairs. The net amount is considered to be the final
claim profit or loss.

Credit Reform Accounting

The FCRA established the use of program, financing, general fund receipt and capital reserve accounts to
separately account for transactions that are not controlled by the Congressional budget process. It also established
the liquidating account for activity relating to any loan guarantees committed and direct loans obligated before
October 1, 1991 (pre-Credit Reform). These accounts are classified as either budgetary or non-budgetary in the
Combined Statements of Budgetary Resources. The budgetary accounts include the program, capital reserve and
liquidating accounts. The non-budgetary accounts consist of the credit reform financing accounts.

The program account receives and obligates appropriations to cover the subsidy cost of a direct loan or loan
guarantee and disburses the subsidy cost to the financing account. The program account also receives
appropriations for administrative expenses. The financing account is a non-budgetary account that is used to
record all of the cash flows resulting from Credit Reform direct loans or loan guarantees. It includes loan
disbursements, loan repayments and fees, claim payments, borrowing from the U.S. Treasury, interest, negative
subsidy and the subsidy cost received from the program account.

The general fund receipt account is used for the receipt of amounts paid from the financing account when there is
a negative subsidy from the original estimate or a downward reestimate. In most cases, the receipt account is a
general fund receipt account and amounts are not earmarked for the FHA’s credit programs. They are available
for appropriations only in the sense that all general fund receipts are available for appropriations. Any assets in
this account are non-entity assets and are offset by intragovernmental liabilities. At the beginning of the
following fiscal year, the fund balance in the general fund receipt account is transferred to the U.S. Treasury
general fund. The FHA general fund receipt account of the GI and SRI funds are in this category.

The liquidating account is a budget account that is used to record all cash flows to and from FHA resulting from
pre-Credit Reform direct loans or loan guarantees. Liquidating account collections in any year are available only
for obligations incurred during that year or to repay debt. Unobligated balances remaining in the GI and SRI
liquidating funds at year-end are transferred to the U.S. Treasury’s general fund. Consequently, in the event that
resources in the GI/SRI liquidating account are otherwise insufficient to cover the payments for obligations or
commitments, the FCRA provides that the GI/SRI liquidating account can receive permanent indefinite authority
to cover any resource shortages.

Loans Receivable and Related Foreclosed Property, Net

FHA’s loans receivable include mortgage notes assigned (MNA), also described as Secretary-held notes, and
purchase money mortgages (PMM). Under the requirements of the FCRA, PMM notes are considered to be direct
loans while MNA notes are considered to be defaulted guaranteed loans. The PMM loans are generated from the
sales on credit of FHA’s foreclosed properties to qualified non-profit organizations. The MNA notes are created
when FHA pays the lenders for claims on defaulted guaranteed loans and takes assignment of the defaulted loans
for direct collections. In addition, Multifamily and Single Family performing notes insured pursuant to Section
221(g)(4) of the National Housing Act may be assigned automatically to FHA at a pre-determined point.

In accordance with the FCRA and Statement of Federal Financial Accounting Standards (SFFAS) No. 2,
Accounting for Direct Loans and Loan Guarantees, Credit Reform direct loans, defaulted guaranteed loans and
foreclosed property are reported at the net present value of expected cash flows associated with these assets,
primarily estimated proceeds less selling and maintenance costs. The difference between the cost of these loans




                                                    48
                                                                                                     2008-FO-0002

and property and the net present value is called the allowance for subsidy cost. Pre-Credit Reform loans
receivable and foreclosed property in inventory are recorded at net realizable value, which is based on historical
recovery rates net of any selling expenses (see Note 6).

Loan Guarantee Liability

The net potential future losses related to FHA’s central business of providing mortgage insurance are reflected in
the Loan Guarantee Liability in the consolidated balance sheets. As required by SFFAS No. 2, the Loan
Guarantee Liability includes the Credit Reform related Liabilities for Loan Guarantees (LLG) and the pre-Credit
Reform Loan Loss Reserve (LLR) (see Note 6).

The LLG is calculated as the net present value of anticipated cash outflows and cash inflows. Anticipated cash
outflows include lender claims arising from borrower defaults, (i.e., claim payments), premium refunds, property
costs to maintain foreclosed properties arising from future defaults and selling costs for the properties.
Anticipated cash inflows include premium receipts, proceeds from asset sales and principal and interest on
Secretary-held notes.

FHA records loss estimates for its Single Family LLR (includes MMI and GI/SRI) to provide for anticipated
losses incurred (e.g., claims on insured mortgages where defaults have taken place but claims have not yet been
filed). Using the net cash flows (cash inflows less cash outflows), FHA computes an estimate based on
conditional claim rates and loss experience data, and adjusts the estimate to incorporate management assumptions
about current economic factors.

FHA records loss estimates for its Multifamily LLR (includes CMHI and GI/SRI) to provide for anticipated
outflows less anticipated inflows. Using the net present value of claims less premiums, fees, and recoveries, FHA
computes an estimate based on conditional claim rates, prepayment rates, and recovery assumptions based on
historical experience.

Use of Estimates

The preparation of the principal financial statements in conformity with GAAP requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities, the disclosure of contingent
assets and liabilities at the date of the financial statements, and the reported amounts of revenues and expenses
during the reporting period. Actual results may differ from those estimates.

Amounts reported for net loans receivable and related foreclosed property and the Loan Guarantee Liability
represent FHA’s best estimates based on pertinent information available.

To estimate the allowance for subsidy (AFS) associated with loans receivable and related to foreclosed property
and the liability for loan guarantees (LLG), FHA uses cash flow model assumptions associated with loan
guarantee cases subject to the Federal Credit Reform Act of 1990 (FCRA), as described in Note 6, to estimate the
cash flows associated with future loan performance. To make reasonable projections of future loan performance,
FHA develops assumptions, as described in Note 6, based on historical data, current and forecasted program and
economic assumptions.

Certain programs have higher risks due to increased chances of fraudulent activities perpetrated against FHA.
FHA accounts for these risks through the assumptions used in the liabilities for loan guarantee estimates. FHA
develops the assumptions based on historical performance and management's judgments about future loan
performance.




                                                   49
2008-FO-0002

General Property, Plant and Equipment

FHA does not maintain separate facilities. HUD purchases and maintains all property, plant and equipment used
by FHA, along with other Office of Housing activities.

Current HUD policy concerning SFFAS No. 10 Accounting for Internal Use Software indicates that HUD will
either own the software or the functionality provided by the software in the case of licensed or leased software.
This includes “commercial off-the-shelf” (COTS) software, contractor-developed software, and internally
developed software. FHA had several procurement actions in place and had incurred expenses for software
development. FHA identified and transferred those expenses to HUD to comply with departmental policy.

Unearned Premiums

Unearned premiums are recognized for pre-Credit Reform loan guarantee premiums collected but not yet earned
in the liquidating account. Premiums charged by FHA’s MMI fund include up-front and annual risk-based
premiums. Up-front risk-based premiums are recorded as unearned revenue upon collection and are recognized as
revenue over the period in which losses and insurance costs are expected to occur. Annual risk-based premiums
are recognized as revenue on a straight-line basis throughout the year. FHA's other funds charge periodic
insurance premiums over the mortgage insurance term. Premiums on annual installment policies are recognized
for the liquidating account on a straight-line basis throughout the year. Premiums associated with Credit Reform
loan guarantees are included in the calculation of the LLG and are not included in the unearned premium amounts
reported in the consolidated balance sheets.

Appropriations and Monies Received from Other HUD Programs

The National Housing Act of 1990, as amended, provides for appropriations from Congress to finance the
operations of GI and SRI funds. For Credit Reform loan guarantees, appropriations to the GI and SRI funds are
provided at the beginning of each fiscal year to cover estimated losses on insured loans during the year. For pre-
Credit Reform loan guarantees, FHA has permanent indefinite appropriation authority to finance any shortages of
resources needed for operations.

Monies received from other HUD programs, such as interest subsidies and rent supplements are recorded as
revenue for the liquidating accounts when services are rendered. Monies received for the financing accounts are
recorded as additions to the LLG or the Allowance for Subsidy (AFS) when collected.

Full Cost Reporting

SFFAS No. 4, Managerial Cost Accounting Concepts and Standards, requires that Federal agencies report the full
cost of program outputs in the financial statements. Full cost reporting includes all direct, indirect, and inter-
entity costs. For purposes of HUD’s consolidated financial statements, HUD identifies each responsibility
segment’s share of the program costs or resources provided by other Federal agencies. As a responsibility
segment of HUD, FHA’s portion of these costs was $19 million for fiscal year 2007 and $23 million for fiscal
year 2006, and was included in FHA’s financial statements as an imputed cost in the Consolidated Statements of
Net Cost, and an imputed financing in the Consolidated Statements of Changes in Net Position. An additional
$18 million was included in fiscal year 2007 for a legal judgment paid by judgment fund on FHA’s behalf.

In a separate effort, FHA conducts time allocation surveys of all Office of Housing operational managers. These
surveys determine FHA’s direct personnel costs associated with the Housing Salaries and Expenses (S&E)
transfer to HUD and where to allocate these costs between the MMI/CMHI and GI/SRI programs. The HUD
Chief Financial Officer (CFO) office also conducts surveys to determine how the department’s fiscal year
overhead, Office of Inspector General, and Working Capital Fund costs, which are paid for by S&E transfer,




                                                   50
                                                                                                          2008-FO-0002

should be accounted for by responsibility segments. This data is an integral part of the FHA direct cost S&E
allocation prepared for financial statement reporting.

Distributive Shares

As mutual funds, excess revenues in the MMI Fund and CMHI Fund may be distributed to mortgagors at the
discretion of the Secretary of HUD. Such distributions are determined based on the funds' financial positions and
their projected revenues and costs. As previously discussed, in November 1990, Congress passed the NAHA,
which effectively suspended payment of distributive shares from the MMI fund, other than those already declared
by the Secretary, until the fund meets certain Capital Ratio requirements. Although the Capital Ratio requirement
has been met since September 30, 1995, no distributive shares have been declared from the MMI fund because
legislation is not yet enacted.

Liabilities Covered by Budgetary Resources

Liabilities of federal agencies are required to be classified as those covered and not covered by budgetary
resources, as defined by OMB Circular A-136, and in accordance with SFFAS No. 1, Selected Assets and
Liabilities. In the event that available resources are insufficient to cover liabilities due at a point in time, FHA has
authority to borrow monies from the U.S. Treasury (for post-1991 loan guarantees) or to draw on permanent
indefinite appropriations (for pre-1992 loan guarantees) to satisfy the liabilities. Thus, all of FHA’s liabilities are
considered covered by budgetary resources.

Statement of Budgetary Resources

The Statement of Budgetary Resources has been prepared as a combined statement and as such, intra-entity
transactions have not been eliminated. Budget authority is the authorization provided by law to enter into
obligations to carry out the guaranteed and direct loan programs and their associated administrative costs, which
would result in immediate or future outlays of federal funds. FHA's budgetary resources include current
budgetary authority (i.e., appropriations and borrowing authority) and unobligated balances brought forward from
multi-year and no-year budget authority received in prior years, and recoveries of prior year obligations.
Budgetary resources also include spending authority from offsetting collections credited to an appropriation or
fund account.

Unobligated balances associated with appropriations that expire at the end of the fiscal year remain available for
obligation adjustments, but not for new obligations, until that account is canceled. When accounts are canceled,
five years after they expire, amounts are not available for obligations or expenditure for any purpose.

FHA funds its programs through borrowings from the U.S. Treasury and debentures issued to the public. These
borrowings and debentures are authorized through a permanent indefinite authority at interest rates set each year
by the U.S. Treasury and the prevailing market rates.




                                                      51
2008-FO-0002

Note 2. Non-entity Assets

Non-entity assets consist of assets that belong to other entities but are included in FHA’s consolidated balance
sheets. To reflect FHA’s net position accurately, these non-entity assets are offset by various liabilities. FHA’s
non-entity assets as of September 30, 2007 and 2006 are as follows:

    (Dollars in millions)
                                                                               2007                 2006
    Intragovernmental:
               Fund Balance with U.S. Treasury                          $          2,828     $             731
               Investments in U.S. Treasury Securities                                 5                     5
    Total Intragovernmental                                                        2,833                   736

    Other Assets                                                                     110                  111
    Total Non-entity Assets                                                        2,943                  847
    Total Entity Assets                                                           34,222               36,446
             Total Assets                                               $         37,165     $         37,293

FHA’s non-entity assets consist of FHA’s U.S. Treasury deposit of negative credit subsidy in the GI/SRI general
fund receipt account and of escrow monies collected by FHA from the borrowers of its loans.

According to the FCRA, FHA transfers negative credit subsidy from new endorsements and downward credit
subsidy reestimates from the GI/SRI financing account to the GI/SRI general fund receipt account. At the
beginning of each fiscal year, fund balance in the GI/SRI general fund receipt account is transferred into the U.S.
Treasury’s general fund.

Other assets consisting of escrow monies collected from FHA borrowers are either deposited at the U.S. Treasury
or Minority-owned banks or invested in U.S. Treasury securities. Subsequently, FHA disburses these escrow
monies to pay for property taxes, property insurance or maintenance expenses on behalf of the borrowers.




                                                    52
                                                                                                         2008-FO-0002

Note 3. Fund Balance with U.S. Treasury

FHA’s fund balance with U.S. Treasury was composed of the following as of September 30, 2007 and 2006:

   (Dollars in millions)
                                                                                 2007                  2006
   Fund Balances:
        Revolving Funds                                                  $           6,450      $           9,393
        Appropriated Funds                                                             321                    408
        Other Funds                                                                  2,788                    767
                    Total                                                $           9,559      $          10,568

   Status of Fund Balance with U.S. Treasury:
         Unobligated Balance:
                     Available                                                       1,180                  2,292
                     Unavailable                                                     6,083                  5,919
         Obligated Balance not yet Disbursed                                         2,296                  2,357
                     Total                                               $           9,559      $          10,568

Revolving Funds

FHA’s revolving funds include the liquidating and financing accounts as required by the FCRA. These funds are
created to finance a continuing cycle of business-like operations in which the fund charges for the sale of products
or services. These funds also use the proceeds to finance spending, usually without requirement of annual
appropriations.

Appropriated Funds

FHA’s appropriated funds consist of the program accounts created by the FCRA. Annual or multi-year program
accounts expire at the end of the time period specified in the authorizing legislation. For the subsequent five fiscal
years after expiration, the resources are available only to liquidate valid obligations incurred during the unexpired
period. Adjustments are allowed to increase or decrease valid obligations incurred during the unexpired period
that were not previously reported. At the end of the fifth expired year, the annual and multi-year program
accounts are cancelled and any remaining resources are returned to the U.S. Treasury.

Other Funds

FHA’s other funds include the general fund receipt accounts established under the FCRA. Additionally, included
with these funds is the capital reserve account that is used to retain the MMI/CMHI negative subsidy and
downward credit subsidy reestimates transferred from the financing account. If subsequent upward credit subsidy
reestimates are calculated in the financing account or there is shortage of budgetary resources in the liquidating
account, the capital reserve account will return the retained negative subsidy to the financing account or transfer
the needed funds to the liquidating account, respectively.

Status of Fund Balance with U.S. Treasury

Unobligated Fund Balance with U.S. Treasury represents Fund Balance with U.S. Treasury that has not been
obligated to purchase goods or services either because FHA has not received apportionment authority from OMB
to use the resources (unavailable unobligated balance) or because FHA has not obligated the apportioned
resources (available unobligated balance). Fund Balance with U.S. Treasury that is obligated, but not yet




                                                     53
2008-FO-0002

disbursed, consists of resources that have been obligated for goods or services but not yet disbursed either because
the ordered goods or services have not been delivered or because FHA has not yet paid for goods or services
received by the end of the fiscal year.

Note 4. Investments

Investment in U.S. Treasury Securities

As discussed in Note 1, all FHA investments in Treasury securities are in non-marketable securities issued by the
U.S. Treasury. These securities carry market-based interest rates. The market value of these securities is
calculated using the bid amount of similar marketable U.S. Treasury securities as of September 30. The cost, par
value, net unamortized discount, net investment, and market values of FHA’s investments in U.S. Treasury
securities as of September 30, 2007 were as follows:

  (Dollars in millions)

                                                                        Unamortized
                                                                          Premium
                                                      Par                (Discount),       Investment,    Market
                                      Cost           Value                   Net               Net        Value

  MMI/CMHI Investments        $       22,129       $ 22,405     $              (191)   $       22,214    $ 22,667
  GI/SRI Investments                       5              5                        -                5           5
                     Subtotal         22,134         22,410                    (191)           22,219      22,672

  MMI/CMHI Accrued Interest                -              -                        -              262           -
                     Total $          22,134       $ 22,410     $              (191)   $       22,481    $ 22,672

The cost, par value, net unamortized discount, net investment, and market values as of September 30, 2006 were
as follows:

 (Dollars in millions)

                                                                        Unamortized
                                                                          Premium
                                                      Par                (Discount),       Investment,    Market
                                      Cost           Value                   Net               Net        Value

  MMI/CMHI Investments        $       21,715       $ 22,030         $           (223) $         21,807   $ 21,987
  GI/SRI Investments                       6              6                        -                 6          6
                     Subtotal         21,721         22,036                     (223)           21,813     21,993

  MMI/CMHI Accrued Interest                -              -                        -               199          -
                     Total $          21,721       $ 22,036         $           (223 ) $        22,012   $ 21,993




                                                    54
                                                                                                                 2008-FO-0002

Investments in Private-Sector Entities

The following table presents financial data on FHA’s investments in private-sector entities as of September 30,
2007 and 2006:

  (Dollars in millions)
                                                         Share of
                       Beginning         New             Earnings       Return of         Other               Ending
                        Balance       Acquisitions       or Losses     Investment      Adjustments            Balance

  2007                $         98        $      -       $       (1)   $       (56)     $            -       $         41

  2006                $         201       $       49     $       15    $       (167)    $            -       $         98


The fiscal year for these private-sector entities is from January 1 to December 31. Their condensed, audited
financial information as of December 31, 2006 and 2005 are as follows:

  (Dollars in millions)                                                               2007                         2006

  Total assets, primarily mortgage loans                                   $           258               $             422
  Liabilities                                                                            2                               3
  Partners’ capital                                                                    256                             419
             Total liabilities and partners’ capital                       $           258               $             422

  Revenues                                                                              78                             184
  Expenses                                                                             (23 )                           (20 )
             Net Income                                                    $            55               $             164


This table of investments consists of the debentures issued to FHA by lenders participating in the Multifamily
Risk-Sharing program under Section 542(c) as of September 30, 2007. The cost is the amount paid at settlement
date.

     (Dollars in millions)



                                          Beginning           Debentures            Debentures               Ending
                                           Balance             Acquired             Redeemed                 Balance

     Debentures                       $              -    $      80             $                -   $             80

                             Total $                 -    $      80             $                -   $             80




                                                         55
2008-FO-0002

Note 5. Accounts Receivable, Net

Accounts receivable, net, as of September 30, 2007 and 2006 are as follows:

                                                     Gross              Allowance                   Net
  (Dollars in millions)                       2007           2006    2007     2006           2007         2006
  From the Public:

  Receivables related to credit program
  assets                                  $      6 $          73 $     (5) $       (4) $        1 $        69
  Premiums receivable                           97            50         -           -         97          50
  Miscellaneous receivables                     21           127         -        (78)         21          49
                             Total        $    124 $         250 $     (5) $      (82) $      119 $       168


Receivables Related to Credit Program Assets

These receivables include sale proceeds receivable and rents receivable from FHA’s foreclosed properties. The
sale proceeds receivable should be differentiated from the PMM notes receivables, which are created by the sales
of FHA’s foreclosed properties on credit to qualifying non-profit organizations.

Premiums Receivable

These amounts consist of the up-front and periodic premiums due to FHA from the mortgagors at the end of the
reporting period. The details of FHA premium structure are discussed in Note 13 – Earned Revenue/Premium
Revenue.

Miscellaneous Receivables

Miscellaneous receivables include late charges and penalties receivable on premiums receivable, generic debt
receivables, refunds receivable from overpayments of claims and distributive shares and other immaterial
receivables.

Allowance for Loss

The allowance for loss for these receivables is calculated based on FHA’s historical loss experience and
management’s judgment concerning current economic factors.




                                                     56
                                                                                                         2008-FO-0002

Note 6. Direct Loans and Loan Guarantees, Non-Federal Borrowers

FHA Direct Loan and Loan Guarantee Programs and the related loans receivable, foreclosed property, and Loan
Guarantee Liability as of September 30, 2007 and 2006 are as follows:

  Direct Loan and Loan Guarantee Programs Administered by FHA Include:

  MMI/CMHI Direct Loan Program
  GI/SRI Direct Loan Program
  MMI/CMHI Loan Guarantee Program
  GI/SRI Loan Guarantee Program


Direct Loans Obligated Prior to Fiscal Year 1992 (Allowance for Loss Method):

(Dollars in millions)
                                                                                                          Value of
                                                                                                           Assets
                                      Loans                            Allowance                           Related
                                    Receivable,        Interest        for Loan         Foreclosed        to Direct
                                      Gross           Receivable        Losses           Property          Loans
Direct Loan Programs
FY 2007:
MMI/CMHI                        $            1    $            1   $          (1)   $            -   $            1
GI/SRI                                      15                 4              (6)                -               13
                        Total   $           16    $            5   $          (7)   $            -   $           14
FY 2006:
MMI/CMHI                        $            3    $            -   $          (2)   $            -   $            1
GI/SRI                                      14                 3              (5)                -               12
                        Total   $           17    $            3   $          (7)   $            -   $           13

Direct Loans Obligated After Fiscal Year 1991:

(Dollars in millions)
                                                                                                          Value of
                                                                                        Allowance          Assets
                                      Loans                                                 for            Related
                                    Receivable,        Interest        Foreclosed        Subsidy          to Direct
                                      Gross           Receivable        Property           Cost            Loans
Direct Loan Programs
FY 2007:
MMI/CMHI                        $             1   $            -   $            -   $          (3)   $          (2)
GI/SRI                                        -                -                -                -
                        Total   $             1   $            -   $            -   $          (3)   $          (2)
FY 2006:
MMI/CMHI                        $             1   $            -   $            -   $          (3)   $          (2)
GI/SRI                                        -                -                -                -                -
                        Total   $             1   $            -   $            -   $          (3)   $          (2)




                                                      57
2008-FO-0002


Total Amount of Direct Loans Disbursed (Post-1991):

(Dollars in millions)

Direct Loan
Programs                        FY 2007           FY 2006

MMI/CMHI                  $               3   $               3
GI/SRI                                    -                   -
              Total       $               3   $               3

Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss Method):

(Dollars in millions)                                                                                                 Value of
                                                                                                                       Assets
                                                                                                                     Related to
                                           Defaulted                                                                  Defaulted
                                          Guaranteed                                                                 Guaranteed
                                            Loans                                  Allowance                           Loans
                                          Receivable,              Interest        for Loan         Foreclosed       Receivable,
                                            Gross                 Receivable        Losses           Property           Net
Loan Guarantee
Programs
FY 2007:
MMI/CMHI                            $                10   $               4    $          (2)   $            4   $            16
GI/SRI                                            2,979                 208             (802)                5             2,390
                        Total       $             2,989   $             212    $        (804)   $            9   $         2,406
FY 2006:
MMI/CMHI                            $                 4   $               -    $          (1)   $            6   $             9
GI/SRI                                            2,974                 135             (818)                8             2,299
                        Total       $             2,978   $             135    $        (819)   $           14   $         2,308

Defaulted Guaranteed Loans from Post-1991 Guarantees:

(Dollars in millions)                                                                                                 Value of
                                           Defaulted                                                                   Assets
                                          Guaranteed                                                Allowance        Related to
                                            Loans                                                       for           Defaulted
                                          Receivable,              Interest        Foreclosed        Subsidy         Guaranteed
                                            Gross                 Receivable        Property           Cost            Loans
Loan Guarantee
Programs
FY 2007:
MMI/CMHI                            $              331    $               -    $        2,710   $      (1,661)   $         1,380
GI/SRI                                             542                  186               330            (118)               940
                        Total       $              873    $             186    $        3,040   $      (1,779)   $         2,320
FY 2006:
MMI/CMHI                            $              341    $                -   $        2,539   $      (1,257)   $         1,623
GI/SRI                                             576                    48              350            (633)               341
                        Total       $              917    $              48    $        2,889   $      (1,890)   $         1,964




                                                                  58
                                                                                                    2008-FO-0002

Guaranteed Loans Outstanding:

  (Dollars in millions)
                                                        Outstanding Principal of
                                                          Guaranteed Loans,         Amount of Outstanding
  Loan Guarantee Programs                                     Face Value             Principal Guaranteed
  FY 2007
  Guaranteed Loans Outstanding:
       MMI/CMHI                                                 $        352,200              $      322,152
       GI/SRI                                                             86,673                      77,808
           Total                                                $        438,873              $      399,960
  FY 2006
  Guaranteed Loans Outstanding:
       MMI/CMHI                                                 $        346,658             $       317,249
       GI/SRI                                                             87,412                      78,522
           Total                                                $        434,070             $       395,771
  FY 2007
  New Guaranteed Loans Disbursed:

         MMI/CMHI                                               $         56,510              $        56,167
         GI/SRI                                                            7,001                        6,971
             Total                                              $         63,511              $        63,138
  FY 2006
  New Guaranteed Loans Disbursed:

         MMI/CMHI                                               $         51,780             $        50,585
         GI/SRI                                                            9,846                       9,140
             Total                                              $         61,626             $        59,725


HECM (reverse mortgages) are not included in the above table due to the unique nature of the program. Since the
inception of the program, FHA has insured 335,798 HECM loans with a maximum claim amount of $67 billion.
Of these 335,798 HECM loans insured by FHA, 259,365 loans with a maximum claim amount of $57 billion are
still active. As of September 30, 2007 the insurance in force (the outstanding balance of active loans) was $30
billion. The insurance in force includes balances drawn by the mortgagee; interest accrued on the balances drawn,
service charges, and mortgage insurance premiums. The maximum claim amount is the dollar ceiling to which
the outstanding loan balance can grow before being assigned to FHA.




                                                   59
2008-FO-0002

Home Equity Conversion Mortgage Loans Outstanding (not included in the balances above):

(Dollars in millions)
                                                                                  Cumulative

                                                                Guaranteed                  Maximum
    Loan Guarantee                  New Guaranteed               Balance                 Potential Liability
      Programs                          Loans                   Outstanding

FY 2007            GI/SRI       $       24,567           $            29,982         $             56,676

FY 2006            GI/SRI       $       17,994           $            18,295         $             35,878




Loan Guarantee Liability, Net:

(Dollars in millions)                Liabilities for Losses
                                         on Pre-1992          Liabilities for Loan
                                         Guarantees,            Guarantees for            Total Loan
                                      Estimated Future            Post-1991               Guarantee
Loan Guarantee Programs              Default Claims (LLR)     Guarantees (LLG)           Liability, Net
FY 2007:
MMI/CMHI                                   $      89              $      6,902                 $        6,991
GI/SRI                                           282                       158                            440
                        Total              $     371              $       7,060                $        7,431
FY 2006:
MMI/CMHI                                   $      51              $      2,828                 $        2,879
GI/SRI                                           447                       156                            603
                        Total              $     498              $      2,984                 $        3,482




                                                 60
                                                                                                                            2008-FO-0002

Subsidy Expense for Loan Guarantee by Program and Component:
 (Dollars in millions)
                                                                               Fees and
                                                                                Other
 Subsidy Expense for New Loan Guarantees                 Defaults             Collections                    Other             Total
 FY 2007:
 MMI/CMHI                                            $         1,249    $             (2,125)     $              667    $        (209)
 GI/SRI                                                          754                  (1,569)                      -             (815)
                                         Total       $         2,003    $             (3,694)     $              667    $       (1,024)
 FY 2006:
 MMI/CMHI                                            $          818     $             (2,076)     $              378    $        (880)
 GI/SRI                                                         647                   (1,138)                      -             (491)
                                         Total       $         1,465    $             (3,214)     $              378    $       (1,371)




Subsidy Expense for Modifications and                       Total                      Technical
Reestimates                                              Modifications                Reestimates
FY 2007:
MMI/CMHI                                                         $          (5)          $       3,940
GI/SRI                                                                        -                   (310)
                                 Total                           $          (5)              $    3,630
FY 2006:
MMI/CMHI                                                         $          (9)          $        1,531
GI/SRI                                                                        -                  (1,110)
                                 Total                           $          (9)          $         421



 Total Loan Guarantee Subsidy Expense                           2007                                  2006

          MMI/CMHI                               $             3,726              $                 642
          GI/SRI                                              (1,125)                            (1,601)
                         Total                   $             2,601              $                (959)

Subsidy Rates for Loan Guarantees by Program and Component:
 (Percentage)                                                                                      Fees and
                                                                                                    Other
                                                                                  Defaults        Collections          Other    Total

 Budget Subsidy Rates for Loan Guarantees of FY 2007
 Cohort:
         MMI/CMHI                                                                      2.21                  (3.76)     1.18    (0.37)
         GI/SRI                                                                        2.28                  (4.75)        -    (2.47)

 Budget Subsidy Rates for Loan Guarantees of FY 2006
 Cohort:
         MMI/CMHI                                                                      1.58                  (4.01)     0.73    (1.70)
         GI/SRI                                                                        2.32                  (4.09)        -    (1.77)




                                                         61
2008-FO-0002


Schedule for Reconciling Loan Guarantee Liability Balances:

(Dollars in millions)                                                        2007                         2006
                                                                   LLR              LLG             LLR           LLG

Beginning Balance of the Loan Guarantee Liability          $         498      $     2,984     $      1,217    $    3,367
Add:     Subsidy Expense for guaranteed loans disbursed
         during the reporting fiscal years by component:
                 Default Costs (Net of Recoveries)                       -           2,003                -         1,465
                 Fees and Other Collections                              -          (3,694)               -       (3,214)
                 Other Subsidy Costs                                     -             667                -           378
         Total of the above subsidy expense components                   -          (1,024)               -       (1,371)
Adjustments:
         Fees Received                                                 -             3,234                -         2,819
         Foreclosed Property and Loans Acquired                        -             3,756                -         4,011
         Claim Payments to Lenders                                     -            (5,869)               -       (6,296)
         Interest Accumulation on the Liability Balance                -               (68)               -            35
         Other                                                         -                (6)              -             13
Ending Balance before Reestimates                                    498             3,007           1,217          2,578
Add or Subtract Subsidy Reestimates by Component:
         Technical/Default Reestimate:
               Subsidy Expense Component                             (127)          3,571            (719)         (677)
               Interest Expense Component                               -             381                -         (269)
         Adjustment to credit subsidy reestimates                       -             101                 -        1,352
Total Technical/Default Reestimate                                   (127)          4,053            (719)           406
Ending Balance of the Loan Guarantee Liability             $          371 $         7,060     $        498    $    2,984



Administrative Expense:

   (Dollars in millions)
                                                                     2007                   2006

             MMI/CMHI                                          $      221                 $ 227
             GI/SRI                                                   273                   274
                        Total                                  $      494                 $ 501

Other Information on Foreclosed Property:

Additional information on FHA foreclosed property as of September 30, 2007 and 2006 is as follows:

                                                               2007                   2006
   Number of properties in foreclosure process                               84               120
   Number of properties held                                         27,782               27,539
   Average holding period for property held                        6 Months            6 Months




                                                    62
                                                                                                         2008-FO-0002

Pre-Credit Reform Valuation Methodology

FHA values its Pre-Credit Reform related notes and properties in inventory at net realizable value, determined on
the basis of net cash flows. To value these items, FHA uses historical claim data, revenues from premiums and
recoveries, and expenses of selling and maintaining property.

The majority of FHA’s Pre-Credit Reform liability relates to the Mark-to-Market program. A separate analysis was
conducted to adjust the loan loss estimate for anticipated reductions for these project-based Section 8 rental
assistance subsidies administered by the Office of Affordable Housing Preservation (OAHP). All projects that are
required to submit financial statements and have submitted annual financial statements within the past two years,
received Section 8 assistance, expected to expire in the next five years, and had contract rents exceeding 100
percent of fair market value were included. In the analysis, the gross rent for these projects was reduced to bring
the contract rent for assisted units to fair market levels. The effects of this rent reduction on projects’ financial
health was assessed and a revised loan principal balance was computed based on a sustainable debt service level.
A potential claim was calculated based on this reduction of loan principal.

Credit Reform Valuation Methodology

FHA values its Credit Reform LLG and related receivables on notes and properties in inventory at the net present
value of their estimated future cash flows.

To apply the present value computations, FHA divides the loans into cohorts and risk categories. Multifamily
cohorts are defined based on the year in which loan guarantee commitments are made. Single Family mortgages
are grouped into cohorts based on loan endorsement dates for the GI/SRI fund and commitment dates for the
MMI fund. Within each cohort year, loans are subdivided by risk categories. Each risk category has
characteristics that distinguish it from others, including risk profile, premium structure, and the type and quality of
collateral underlying the loan.

The cash flow estimates that underlie the present value calculations are determined using the significant
assumptions detailed below.

Significant Assumptions – FHA developed financial models in order to estimate the present value of future
program cash flows. The models incorporate information on the cash flows’ expected magnitude and timing. The
models rely heavily on the following loan performance assumptions:

    x   Conditional Termination Rates: The estimated probability of an insurance policy claim or non-claim
        termination in each year of the loan guarantee’s term.

    x   Recovery Rates: The estimated percentage of a claim payment that is recovered through disposition of a
        mortgage note or underlying property.

    x   Conditional Claim Amount: The estimated amount of the claim payment relative to the unpaid principal
        balance at the time the claim occurs.

Additional information about loan performance assumptions is provided below:

Sources of data: FHA developed assumptions for claim rates, prepayment rates, claim amounts, and recoveries
based on historical data obtained from its systems.

Economic assumptions: Forecasts of economic conditions used in conjunction with loan-level data to generate
Single Family and Multifamily claim and prepayment rates were obtained from Global Insights (formerly DRI)




                                                     63
2008-FO-0002

forecasts of U.S. annual economic figures. OMB provides other economic assumptions used, such as discount
rates.

Reliance on historical performance: FHA relies on the average historical performance of its insured portfolio to
forecast future performance of that portfolio. Changes in legislation, subsidy programs, tax treatment and
economic factors all influence loan performance. FHA assumes that similar events may occur during the
remaining life of existing mortgage guarantees, which can be as long as 40 years for Multifamily programs and
affect loan performance accordingly.

Current legislation and regulatory structure: FHA's future plans allowed under current legislative authority have
been taken into account in formulating assumptions when relevant. In contrast, future changes in legislative
authority may affect the cash flows associated with FHA insurance programs. These changes cannot be reflected
in LLG calculations because of uncertainty over their nature and outcome.

Discount rates: The disbursement weighted interest rate on U.S. Treasury securities of maturity comparable to the
guaranteed loan term is the discount factor used in the present value calculation for cohorts 1992 to 2000. For the
2001 and future cohorts, the rate on U.S. Treasury securities of maturity comparable to the term of each cash flow
for the loan guarantee is used in the present value calculation. This methodology is referred to as the basket of
zeros discounting methodology. OMB provides these rates to all Federal agencies for use in preparing credit
subsidy estimates and requires their use under OMB Circular A-11, Part 4, “Instructions on Budget Execution.”
The basket of zeros discount factors are also disbursement weighted.

Analysis of Change in the Liability for Loan Guarantees

FHA has estimated and applied credit subsidy rates to each FHA loan guarantee program since fiscal year 1992.
Over this time FHA’s credit subsidy rates have varied. The variance is caused by three factors: (1) additional loan
performance data underlying the credit subsidy rate estimates, (2) revisions to the calculation methodology used
to estimate the credit subsidy rates, and (3) revisions on expected claims and prepayments derived from the
revised Actuarial Review of the MMI Fund. Loan performance data, which reflect mortgage market performance
and FHA policy direction, are added as they become available. Revisions to the estimation methodology result
from legislative direction and technical enhancements.

FHA estimated the credit subsidy rates for the 2007 cohort in fiscal year 2005. At the time of budget submission,
the rates reflected prevailing policy and loan performance assumptions based on the most recent information
available. These credit subsidy rates can be reconciled to the credit subsidy rates estimated at the end of 2007.
Credit subsidy reestimates allow FHA to adjust the LLG and subsidy expense to reflect the most current and
accurate credit subsidy rate.

Described below are the programs that comprise the majority of FHA’s fiscal year 2007 business. In addition, the
Hospital Insurance program is also described. These descriptions highlight the factors that contributed to changing
credit subsidy rates and the credit subsidy reestimate. Overall, FHA’s liability increased by $4 billion from the
fiscal year 2006 estimates.

Mutual Mortgage Insurance (MMI) - During fiscal year 2007, FHA continued to experience increased claim rates
due to two factors: (1) increased insurance of loans with down payment assistance, and (2) the nationwide
decrease in house price appreciation, which results in increased claims and lower proceeds from the sale of
foreclosed properties. The decline in proceeds is also attributable to loans where borrowers received down
payment assistance from seller-financed nonprofits. A recent Internal Revenue Service ruling that had withdrawn
nonprofit status from such entities has not reduced the incidence of these loans.




                                                    64
                                                                                                     2008-FO-0002

GI/SRI Home Equity Conversion Mortgage (HECM) - As the HECM volume increased significantly during fiscal
year 2007, the HECM liability also increased from $123 million in fiscal year 2006 to $169 million in fiscal year
2007.

GI/SRI Section 221(d)(4) - The Section 221(d)(4) program was established to provide mortgage insurance for the
construction or substantial rehabilitation of Multifamily rental properties with five or more units. Under this
program, HUD may insure up to 90 percent of the total project cost and is prohibited from insuring loans with
HUD-subsidized interest rates. The Section 221(d)(4) program is the largest Multifamily program in the GI/SRI
fund. The Section 221(d)(4) liability decreased in FY 2007 and was impacted by the improved risk profile of
cohorts 2002 through 2004.

Mark-to-Market – The Mark to Market (MTM) program was established by legislation to assess rents at the time
of Section 8 Assistance contract renewal. If rents are above market levels, the project is referred to OAHP.
OAHP then evaluates the project for potential financial restructuring to determine if the project could survive
given the lower revenues from reduced rents. The MTM liability decreased in fiscal year 2007 as a result of a
reduced pool of loans that are eligible for restructuring. This eligible pool is comprised of active loans with
Section 8 assistance and FHA insurance. However, since Section 8 assistance is no longer offered to newly
endorsed loans, the number of existing FHA-insured and assisted loans continues to shrink every year, thereby
reducing the number of loans eligible for MTM restructuring.

GI/SRI Section 234(c) - The Section 234(c) program insures loans for condominium purchases. One of the many
purposes of FHA’s mortgage insurance programs is to encourage lenders to make affordable mortgage credit
available for non-conventional forms of ownership. Condominium ownership, in which the separate owners of the
individual units jointly own the development’s common areas and facilities, is one particularly popular
alternative. Historically, the program generates a reduction in credit subsidy expense ($95 million in fiscal year
2006). As in the MMI fund, the projected losses from future foreclosures were significantly increased to factor
the decrease in proceeds and the additional losses from down payment assistance loans. These changes resulted in
a liability of $107 million for fiscal year 2007.

Hurricane Cost Estimate

At the end of fiscal year 2005 the damage assessments for hurricane Katrina were not complete and there was not
sufficient information for FHA to reasonably estimate the losses or predict the liability. This was subsequently
addressed during the preparation of the fiscal year 2007 budget, at which time OMB included additional liability
estimates for hurricane Katrina. These additional amounts were apportioned by OMB and recorded by FHA
during fiscal year 2006. This adjustment resulted in an additional $250 million added to the GI/SRI reestimate
and an additional $1.1 billion added to the MMI/CMHI reestimate, which was combined with current year cost
estimates for the MMI and GI/SRI funds to provide for the total liability to the LLG and LLR of $3.5 billion for
fiscal year 2006.

Single Family Hurricane Cost
FHA evaluated all open default cases from the hurricane-impacted areas as of August 31, 2007. The various status
categories found for these default cases was used to estimate number of claims and cost for each category. Based
on this evaluation, FHA estimated 2,548 total claims (including failed loss mitigation actions) with an unpaid
principal balance of $203.1 million. FHA program offices estimated a 62% loss rate for these properties, which is
higher than the normal loss rate of 36% in the national portfolio. The 62% loss rate was taken from the pool of
not-for-profit sales in the MMI fund in fiscal year 2006. Based on this evaluation and assumptions the estimated
net present value hurricane cost is $139.05 million.

Multifamily Hurricane Cost
Impacted properties included in the Multifamily hurricane cost estimate were determined from physical
inspections conducted by FHA’s Office of Multifamily Housing Programs. During fiscal year 2007, it was




                                                   65
2008-FO-0002

determined no additional Multifamily liabilities related to Hurricane Katrina were required.


Note 7. Other Assets

The following table presents the composition of other assets held by FHA as of September 30, 2007 and 2006:

          (Dollars in millions)
                                                                                2007             2006
          Intragovernmental:
           Advances to HUD for Working Capital Fund Expenses       $               4   $           24
                             Total                                 $               4   $           24

          With the Public:
          Escrow Monies Deposited at Minority-Owned Banks          $             110   $          110
          Undistributed Charges                                                   33               30
                             Total                                 $             143   $          140

Advances to HUD for Working Capital Fund Expenses

The Working Capital Fund was established by HUD to consolidate, at the department level, the acquisition of
certain property and equipment to be used by different organizations within HUD. Advances to HUD for
Working Capital Fund expenses represent the amount of payments made by FHA to reimburse the HUD Working
Capital Fund for its share of the fund’s expenses prior to the receipt of goods or services from this fund.

Escrow Monies Deposited at Minority-Owned Banks

FHA holds in trust escrow monies received from the borrowers of its Multifamily mortgage notes to cover
property repairs and renovations expenses. These escrow monies are deposited at the U.S. Treasury (see Note 2),
invested in U.S. Treasury securities (see Note 4 - GI/SRI Investments) or deposited at minority-owned banks.

Undistributed Charges

Undistributed charges include FHA disbursements processed by the U.S. Treasury but the identification of the
specific FHA operating area associated with the disbursement has not been determined by the end of the reporting
period. When the FHA operating area that initiated the disbursement is identified, the undistributed charges are
reclassified by recognizing new expenses or by liquidating previously established accounts payable.




                                                    66
                                                                                                     2008-FO-0002

Note 8. Accounts Payable

Accounts payable as of September 30, 2007 and 2006 are as follows:
       (Dollars in millions)
                                                                       2007                 2006
                                                                                                         Claims

       With the Public:
       Claims Payable                                          $              224   $              206
       Premium Refunds and Distributive Shares Payable                         81                   84
       Disbursements in Transit                                                61                   46
       Miscellaneous Payables                                                  19                   60
                          Total                                $              385   $              396

Payable

Claims payable represents the amount of claims that have been processed by FHA, but the disbursement of
payment to lenders has not taken place at the end of the reporting period.

Premium Refunds and Distributive Shares Payable

Premium refunds payable are refunds of previously collected Single Family premiums that will be returned to the
borrowers resulting from prepayment of the insured mortgages. Distributive shares payable represents the amount
of excess revenues in the liquidating account of the CMHI fund that is to be distributed to the mortgagors at the
discretion of the Secretary of HUD.

Disbursements in Transit

Disbursements in transit represent the payments recorded in FHA financial systems that have not been processed
by the U.S. Treasury. The disbursements in transit will be reclassified into the reductions of the Fund Balance
with U.S. Treasury once the disbursements are confirmed as paid by the U.S. Treasury.

Miscellaneous Payables

Miscellaneous payables include interest enhancement payables, interest penalty payables for late payment of
claims, generic debt payables and other payables related to various operating areas within FHA.




                                                   67
2008-FO-0002


Note 9. Debt

The following tables describe the composition of debt held by FHA as of September 30, 2007 and 2006:

 (Dollars in millions)                                        2006                                   2007
                                             Beginning          Net           Ending           Net        Ending
                                              Balance        Borrowing        Balance       Borrowing     Balance

 Agency Debt:
      Debentures Issued to Claimants     $         132   $         (37)   $       95    $         (25)   $       70
 Other Debt:
      Borrowings from U.S. Treasury              7,548          (1,290)         6,258          (1,685)        4,573
                             Total       $       7,680   $      (1,327)   $     6,353   $      (1,710)   $    4,643


                                                                                                 2007          2006
 Classification of Debt:
        Intragovernmental Debt                                                          $       4,573    $    6,258
        Debt held by the Public                                                                    70            95
                           Total                                                        $       4,643    $    6,353

Debentures Issued to Public

The National Housing Act authorizes FHA, in certain cases, to issue debentures in lieu of cash to settle claims.
FHA-issued debentures bear interest at rates established by the U.S. Treasury. Interest rates related to the
outstanding debentures ranged from 4.00 percent to 12.875 percent in both fiscal years 2007 and 2006. Lenders
may redeem FHA debentures prior to maturity in order to pay mortgage insurance premiums to FHA, or they may
be called with the approval of the Secretary of the U.S. Treasury.

The par value of debentures outstanding at September 30 was $70 million in fiscal year 2007 and $95 million in
fiscal year 2006. The fair values for fiscal years 2007 and 2006 were $101 and $143 million, respectively.

Borrowings from U.S. Treasury

In accordance with Credit Reform accounting, FHA borrows from the U.S. Treasury when cash is needed in its
financing accounts. Usually, the need for cash arises when FHA has to transfer the negative credit subsidy
amounts related to new loan disbursements, and existing loan modifications from the financing accounts to the
general fund receipt account (for cases in GI/SRI funds) or to the liquidating account (for cases in MMI/CMHI
funds). In some instances, borrowings are also needed to transfer the credit subsidy related to downward
reestimates from the GI/SRI financing account to the GI/SRI receipt account or when available cash is less than
claim payments due.

During fiscal year 2007, FHA’s U.S. Treasury borrowings carried interest rates ranging from 2.33 percent to 7.34
percent. In fiscal year 2006 the carried interest rates ranged from 2.41 percent to 7.36 percent. Fiscal year 2007
maturity dates occur from August 2010 – April 2027. Loans may be repaid in whole or in part without penalty at
any time prior to maturity.




                                                   68
                                                                                                           2008-FO-0002

Note 10. Other Liabilities

The following table describes the composition of other liabilities as of September 30, 2007 and 2006:

 (Dollars in millions)                           Current                     Non-Current                  Total
                                             2007        2006             2007       2006          2007           2006
 Intragovernmental:
  Special Receipt Account Liability      $   3,657   $        2,486   $      -   $       -   $    3,657    $      2,486
                                 Total   $   3,657   $        2,486   $      -   $       -   $    3,657    $      2,486


 With the Public:
 Trust and Deposit Liabilities           $    155    $         170    $     -    $      -    $      155    $       170
 Unearned Premiums                             24               21          7         120            31            141
 Undistributed Credits                         48               50          -           -            48             50
 Miscellaneous Liabilities                    240              216          -           -           240            216
                                 Total   $    467    $         457    $     7    $    120    $      474    $       577

Special Receipt Account Liability

The special receipt account liability is created from negative subsidy endorsements and downward credit subsidy
in the GI/SRI special receipt account.

Trust and Deposit Liabilities

Trust and deposit liabilities include mainly escrow monies received by FHA for the borrowers of its mortgage
notes and earnest money received from potential purchasers of the FHA foreclosed properties. The escrow
monies are eventually disbursed to pay for insurance, property taxes, and maintenance expenses on behalf of the
borrowers. The earnest money becomes part of the sale proceeds or is returned to any unsuccessful bidders.

Unearned Premiums

As discussed in Note 1, unearned premiums represent premiums collected for the pre-1992 loan guarantees, but
not recognized as revenue because the earning process has not been completed.

Undistributed Credits

Undistributed credits represent FHA collections processed by U.S. Treasury, but the identification of the specific
operating area associated with the collections has not been determined at the end of the reporting period. When
the FHA operating area that is entitled to the collections is identified, the undistributed credits are reclassified by
recognizing revenue or by liquidating previously established accounts receivable.

Miscellaneous Liabilities

Miscellaneous liabilities include mainly other unearned revenue from Single Family and Multifamily operations.
It also includes loss contingencies that are recognized by FHA for past events that warrant a probable, or likely,
future outflow of measurable economic resources.




                                                         69
2008-FO-0002


Note 11. Commitments and Contingencies

Litigation

FHA is party in various legal actions and claims brought by or against it. In the opinion of management and
general counsel, the ultimate resolution of two of these legal actions and claims will have a material affect FHA’s
consolidated financial statements as of September 30, 2007. FHA has recognized an estimated amount of $11
million as a contingent liability due to the probable, or likely, adverse judgment in these cases. Additionally, there
are two cases where judgment against FHA is considered reasonably possible with an estimated potential loss of
$3 million.

During FY 2007 two judgments against FHA were paid. One was paid by The Department of Justice judgment
fund and the other judgment was paid from FHA’s funds. The judgments totaled $30 million.

Pending or Threatened Litigation Against FHA

(Dollars in millions)
                                            2007                                       2006
Expected Outcome           Estimated Loss     Number of Cases        Estimated Loss       Number of Cases
Probable                        $11                 2                     $24                   1
Reasonably Possible              $3                 2                     $18                   1
Remote                            -                 8                      -                    5


Note 12. Gross Costs

Gross costs incurred by FHA for the fiscal years ended September 30, 2007 and 2006 are as follows:

       (Dollars in millions)                                  2007                            2006
                                                       MMI/CMHI          GI/SRI        MMI/CMHI           GI/SRI

       Intragovernmental:
        Interest Expense                           $          263    $      104    $           342    $      101
        Imputed Costs                                           8            29                 10            13
        Other Expenses                                         13             8                 35            33
                                      Total        $          284    $      141    $           387    $      147

       With the Public:
       Salary and Administrative Expenses          $           208   $       265   $           192    $       241
       Subsidy Expense                                       3,726       (1,125)               642        (1,601)
       Interest Expense                                        697         (338)               284          (248)
       Bad Debt Expense                                       (20)            11                 20          (24)
       Loan Loss Reserve Expense                                48         (143)                (3)         (734)
       Other Expenses                                           41            95                  -           317
                                      Total        $         4,700   $   (1,235)   $          1,135   $   (2,049)




                                                        70
                                                                                                        2008-FO-0002

Interest Expense

Intragovernmental interest expense includes interest expense on borrowings from the U.S. Treasury in the
financing account. Interest expense is calculated annually for each cohort using the interest rates provided by the
U.S Treasury. Interest expense with the public consists of interest expense on debentures issued to claimants to
settle claim payments and interest expense on the annual credit subsidy reestimates.

Imputed Costs/Imputed Financing

Imputed costs represent FHA’s share of the departmental imputed cost calculated and allocated to FHA by the
HUD CFO office. Federal agencies are required by SFFAS No. 4, Managerial Cost Accounting Concepts and
Standards, to account for costs assumed by other Federal organizations on their behalf. The HUD CFO receives
its imputed cost data from the Office of Personnel Management (OPM) for pension costs, federal employee health
benefits (FEHB) and life insurance costs. It also receives Federal Employees’ Compensation Act (FECA) costs
from the Department of Labor (DOL). Subsequently, using its internally developed allocation basis, HUD CFO
allocates the imputed cost data to each of its reporting offices. An additional $18 million was included in fiscal
year 2007 for a legal judgment paid by judgment fund on FHA’s behalf. The imputed costs reported by FHA in
its Statements of Net Cost are equal to the amounts of imputed financing in its Statements of Changes in Net
Position.

Salary and Administrative Expenses

Salary and administrative expenses include FHA’s reimbursement to HUD for FHA personnel costs and FHA’s
payments to third party contractors for administrative contract expenses.

Subsidy Expense

Subsidy expense, positive and negative, consists of credit subsidy expense from new endorsements,
modifications, and annual credit subsidy reestimates and the subsidy expense incurred by the Church Arson
program. Credit subsidy expense is the estimated long-term cost to the U.S. Government of a direct loan or loan
guarantee, calculated on a net present value basis of the estimated future cash flows associated with the direct loan
or loan guarantee. Subsidy expense incurred by the Church Arson program is the expense of a HUD program
administered by the Office of Community Planning and Development (CPD) even though its cost is funded
through a FHA program account.

Bad Debt Expense

Bad debt expense represents the provision for loss recorded for uncollectible amounts related to FHA’s pre-1992
accounts receivable and credit program assets. FHA calculates its bad debt expense based on the estimated
change of these assets’ historical loss experience and FHA management’s judgment concerning current economic
factors.

Loan Loss Reserve Expense

Loan loss reserve expense is recorded to account for the change in the balance of the loan loss reserve liabilities
associated with FHA’s pre-1992 loan guarantees. The loan loss reserve is provided for the estimated losses
incurred by FHA to pay claims on its pre-1992 insured mortgages when defaults have taken place but the claims
have not yet been filed with FHA.




                                                     71
2008-FO-0002

Other Expenses

Other expenses with the public include only those associated with the FHA pre-1992 loan guarantees. They
consist of net losses or gains on sales of FHA credit program assets, insurance claim expenses, fee expenses, and
other miscellaneous expenses incurred to carry out FHA operations. Other intragovernmental expenses include
FHA’s share of HUD expenses incurred in the Working Capital Fund and expenses from intra-agency
agreements.


Note 13. Earned Revenue

Earned revenues generated by FHA for the fiscal years ended September 30, 2007 and 2006 are as follows:

 (Dollars in millions)                                          2007                         2006
                                                          MMI/CMHI        GI/SRI       MMI/CMHI          GI/SRI

  Intragovernmental:
  Interest Revenue from Deposits at U.S. Treasury    $         308    $      107   $           293   $      188
  Interest Revenue from MMI/CMHI Investments                   991             -             1,041            -
                                             Total   $        1,299   $      107   $         1,334   $      188

 With the Public:
 Premium Revenue                                     $          13    $       38   $           86    $       36
 Interest Revenue                                                2            53                -            49
 Other Revenue                                                   9             -                8             -
                                             Total   $          24    $       91   $           94    $       85


Interest Revenue

Intragovernmental interest revenue includes interest revenue from deposits at the U.S. Treasury and investments
in U.S. Treasury securities. FHA’s U.S. Treasury deposits are generated from post-1991 loan guarantees and
direct loans in the financing accounts. FHA’s investments in U.S. Treasury securities consist of investments of
surplus resources in the MMI/CMHI liquidating accounts and of escrow monies collected from borrowers in the
GI/SRI liquidating accounts.

Interest revenue with the public is generated mainly from FHA’s acquisition of pre-1992 performing MNA notes
from payments to lenders for defaulted guaranteed loans. Interest revenue associated with the post-1991 MNA
notes is included in the Allowance for Subsidy balance.

Premium Revenue

According to the FCRA accounting, FHA’s premium revenue includes only premiums associated with the pre-
1992 loan guarantee business. Premium revenue for post-1991 loan guarantee cases is included in the balance of
the LLG. The FHA premium structure, set by the National Affordable Housing Act and published in the Code of
Federal Regulations, which became effective July 1991, includes both up-front premiums and annual periodic
premiums.




                                                     72
                                                                                                 2008-FO-0002

Up-front Premiums

The up-front premium rates, which are set by legislation, vary according to the mortgage type and the year of
origination. The pre-1992 up-front premiums in the MMI fund were recorded as unearned revenue upon
collection and are recognized as revenue over the period in which losses and insurance costs are expected to
occur. Other FHA funds’ unearned revenue is recognized monthly as revenue on a straight-line basis.



The FHA up-front premium rates in fiscal year 2007 were:

                                          Premium Rate
                      Single Family       1.50%
                      Multifamily         0.45 %, 0.50%, 0.57% or 0.80%

Periodic Premiums

The periodic premium rate is used to calculate monthly or annual premiums receivable. These rates, which are
also legislated, vary by mortgage type and program. The FHA periodic premium rate in fiscal year 2007 for
Single Family and Multifamily were:

                                           Mortgage Term 15        Mortgage Term More
                                            Years or Less            Than 15 Years

                      Single Family       0.25%                   0.50%
                      Multifamily         0.45 %, 0.50%, 0.57%    0.45 %, 0.50%, 0.57%
                                          or 0.80%                or 0.80%

For Title I, the maximum insurance premium paid for guaranteed cases endorsed in years 1992 through 2001 is
equal to 0.50 percent of the loan amount multiplied by the number of years of the loan term. The annual
insurance premium for a Title I Property Improvement loan is 0.50 percent of the loan amount until the maximum
insurance charge is paid. The annual insurance premium of a Title I Manufactured Housing loan is calculated in
tiers by loan term until the maximum insurance charge is paid. For guaranteed cases endorsed in fiscal years
2006 and 2007, the Title I annual insurance premium is 1.00 percent of the loan amount until maturity.

Other Revenue

Other revenue includes revenue associated with FHA pre-1992 loan guarantees. FHA’s other revenue consists of
late charges and penalty revenue, fee income, and miscellaneous income generated from FHA operations.


Note 14. Gross Cost and Earned Revenue by Budget Functional Classification

FHA cost and earned revenue reported on the Statements of Net Cost is categorized under the budget functional
classification (BFC) for Mortgage Credit (371). All FHA U.S. Treasury account symbols found under the
department code “86” for Department of Housing and Urban Development appear with the Mortgage Credit BFC.




                                                 73
2008-FO-0002

Note 15. Transfers Out

Transfers out incurred by FHA for the fiscal years ended September 30, 2007 and 2006 are as follows:

 (Dollars in millions)
                                                      U.S. Treasury           HUD                    Total

 Budgetary Financing Sources                      $            1,173      $           609     $               1,782
 Other Financing Sources                                         834                (389)                       445
                 FY 2007 Total                    $            2,007      $           220     $               2,227

 Budgetary Financing Sources                      $              532      $         234       $                766
 Other Financing Sources                                       1,692                  -                       1,692
                    FY 2006 Total                $             2,224      $         234       $               2,458

Transfers Out to U.S. Treasury

Transfers out to U.S. Treasury consists of negative subsidy from new endorsements, modifications and downward
credit subsidy reestimates in the GI/SRI general fund receipt account, and the prior year unobligated balance of
budgetary resources in the GI/SRI liquidating account.

Transfers Out to HUD

Transfers out to HUD include a certain portion of FHA’s payments to HUD for salaries and expenses as well as
amounts related to FHA’s share in the departmental Working Capital Fund capitalized expense.

Note 16. Unexpended Appropriations

Unexpended appropriation balances at September 30, 2007 and 2006 are as follows:

(Dollars in millions)    Beginning Appropriations    Other    Appropriations Transfers-                   Ending
                          Balance    Received     Adjustments     Used          Out                       Balance

Positive Subsidy         $     64   $             9     $       (40)      $        (5)    $           -   $      28
Administrative                365               721             (79)             (105)            (609)         293
      Expenses
Reestimates                     -               109                -             (109)                -           -
GI/SRI Liquidating            165               413                -             (196)            (159)         223
       FY 2007 Total     $    594   $         1,252      $     (119)      $      (415)    $       (768)   $     544

Positive Subsidy         $     58   $             9     $             -   $         (3)   $           -   $      64
Administrative
      Expenses                450               728             (83)             (730)                -         365
Reestimates                     -               361                -             (361)                -           -
GI/SRI Liquidating            101               183                -              (84)             (35)         165
       FY 2006 Total     $    609   $         1,281      $      (83)      $    (1,178)    $        (35)   $     594

As required under FCRA, FHA receives appropriations to cover expenses or fund shortages related to its loan
guarantee and direct loan operations.

FHA receives appropriations in the annual program accounts for administrative and contract expenses. The
GI/SRI no-year program account also receives appropriations for positive credit subsidy and upward reestimates.




                                                  74
                                                                                                     2008-FO-0002

Additionally, FHA obtains permanent indefinite appropriations to cover any shortfalls for its GI/SRI pre-1992
loan guarantee operations.

When appropriations are first received, they are reported as unexpended appropriations. As these appropriations
are expended, appropriations used are increased and unexpended appropriations are decreased. Additionally,
unexpended appropriations are decreased when: salaries, administrative expenses, and working capital funds are
transferred out to HUD; the year-end unobligated balance in the GI/SRI liquidating account is returned to the U.S.
Treasury; appropriations are rescinded; or other miscellaneous adjustments are required.


Note 17. Budgetary Resources

The SF-133 and the Statement of Budgetary Resources for fiscal year 2006 have been reconciled to the fiscal year
2006 actual amounts included in the P&F Schedules presented in the Budget of the United States Government.
There were no significant reconciling items. Information from the fiscal year 2007 Statement of Budgetary
Resources will be presented in the fiscal year 2009 Budget of the U.S. Government. The Budget will be
transmitted to Congress on the first Monday in February 2009 and will be available from the Government Printing
Office at that time.

Obligated balances at the end of the fiscal year 2007 consist of accounts payable of $1,046 million, and
undelivered orders of $1,250 million.

Undelivered Orders
(Dollars in millions)
                            2007          2006

 MMI/CMHI               $      662 $             687
 GI/SRI                 $      588 $             634
 Total                  $    1,250 $           1,321


In fiscal year 2006, the Salaries and Expense cost was obligated in FHA’s accounts each month and a cash
payment was made to HUD. FHA showed an obligation on its Statement of Budgetary Resources (SBR) and
HUD showed an offsetting collection. In fiscal year 2007, FHA made a non-expenditure transfer to HUD for
Salaries, Administrative, and Working Capital Fund Expenses. As a result, both FHA and HUD show a non-
expenditure transfer on the SBR. The change does not affect the Statement of Net Cost.




                                                   75
2008-FO-0002

NOTE 18. Budgetary Resources - Collections

The following table presents the composition of FHA’s collections for fiscal year 2007:

(Dollars in millions)
                                      MMI/CMHI          GI/SRI             Total
 Collections:
 Premiums                             $    2,148   $             904   $      3,052
 Notes                                $       39   $             542   $        581
 Property                             $    3,334   $             142   $      3,476
 Interest Earned from U.S Treasury    $    1,264   $             107   $      1,371
 Subsidy                              $      214   $             124   $        338
 Reestimates                          $    1,904   $             109   $      2,013
 Other                                $      101   $             229   $        330
                              Total   $    9,004   $           2,157   $     11,161


The following table presents the composition of FHA’s collections for fiscal year 2006:

(Dollars in millions)
                                      MMI/CMHI          GI/SRI             Total

 Collections:
 Premiums                             $    1,909   $             913   $      2,822
 Notes                                $       46   $             593   $        639
 Property                             $    3,543   $             180   $      3,723
 Interest Earned from U.S Treasury    $    1,462   $             187   $      1,649
 Subsidy                              $      890   $               6   $        896
 Reestimates                          $    3,507   $             361   $      3,868
 Other                                $      303   $             206   $        509
                              Total   $   11,660   $           2,446   $     14,106



Note 19. Budgetary Resources – Non-expenditure Transfers

The following table presents the composition of FHA’s non-expenditure transfers for fiscal year 2007:

(Dollars in millions)
                                                               MMI/CMHI            GI/SRI             Total

 Transfers:
 Salaries, Administrative Expenses, and Working Capital        $       240    $             369   $           609
                                                       Total   $       240    $             369   $           609




                                                   76
                                                                                                              2008-FO-0002


Note 20. Budgetary Resources – Obligations

The following table presents the composition of FHA’s obligations for fiscal year 2007:

(Dollars in millions)
                                                          MMI/CMHI         GI/SRI                 Total

 Obligations:
 Claims                                                   $    5,340   $        1,003     $           6,343
 Single Family Property Management Contracts              $      360   $           17     $             377
 Contract Obligations                                     $       40   $          142     $             182
 Subsidy                                                  $      214   $        1,134     $           1,348
 Downward Reestimates                                     $      554   $        1,746     $           2,300
 Upward Reestimates                                       $    1,351   $          109     $           1,460
 Interest on Borrowings                                   $      263   $          115     $             378
 Other                                                    $       68   $          170     $             238
 Salaries, Administrative Expenses and Working            $        -   $            -     $               -
 Capital
                                                 Total    $    8,190   $        4,436     $          12,626


The following table presents the composition of FHA’s obligations for fiscal year 2006:

(Dollars in millions)

                                                          MMI/CMHI         GI/SRI                 Total

 Obligations:
 Claims                                                   $    5,530   $          983         $      6,513
 Single Family Property Management Contracts              $      448   $           25         $        473
 Contract Obligations                                     $       46   $          202         $        248
 Subsidy                                                  $      889   $          514         $      1,403
 Downward Reestimates                                     $      103   $          180         $        283
 Upward Reestimates                                       $    3,404   $          361         $      3,765
 Interest on Borrowings                                   $      342   $          115         $        457
 Other                                                    $       85   $          181         $        266
 Salaries, Administrative Expenses and Working Capital    $      370   $          240         $        610
                                                 Total    $   11,217   $        2,801         $     14,018




                                                     77
 2008-FO-0002

 NOTE 21. Reconciliation of Net Cost of Operations to Budget

 This note (formerly the Statement of Financing) links the proprietary data to the budgetary data. Most
 transactions are recorded in both proprietary and budgetary accounts. However, because different accounting
 bases are used for budgetary and proprietary accounting, some transactions may appear in only one set of
 accounts.


                                                                                          2007             2006
RESOURCES USED TO FINANCE ACTIVITIES
Obligations Incurred                                                                  $       12,626 $      14,018
Spending Authority from Offsetting Collections and Recoveries                               (11,468)       (14,108 )
Offsetting Receipts                                                                          (2,759)          (677 )
Transfers In / Out                                                                             (445)        (1,692 )
Imputed Financing from Costs Absorbed by Others                                                   37            23
TOTAL RESOURCES USED TO FINANCE ACTIVITIES                                            $      (2,009) $      (2,436 )

RESOURCES THAT DO NOT FUND THE NET COST OF OPERATIONS
Undelivered Orders and Adjustments                                                    $           90 $        (124 )
Revenue and Other Resources                                                                   12,668        13,064
Purchase of Assets                                                                           (9,879)        (7,228 )
Appropriation for prior year Re-estimate                                                     (1,460)        (3,768 )
TOTAL RESOURCES NOT PART OF NET COST OF OPERATIONS                                    $        1,419 $       1,944

TOTAL RESOURCES USED TO FINANCE THE NET COST (SURPLUS) OF
OPERATIONS                                                                            $          (590) $      (492 )

COMPONENTS OF THE NET COST (SURPLUS) OF OPERATIONS THAT WILL
NOT REQUIRE OR GENERATE RESOURCES IN THE CURRENT PERIOD
Upward Re-estimate of Credit Subsidy Expense                                          $          4,870 $     2,683
Downward Re-estimate of Credit Subsidy Expense                                                   (817)      (2,268 )
Changes in Loan Loss Reserve Expense                                                             (127)        (739 )
Changes in Bad Debt Expenses Related to Uncollectible Pre-Credit Reform Receivables                 (9)         (5 )
Reduction of Credit Subsidy Expense from Endorsements and Modifications of Loan
Guarantees                                                                                   (1,032)        (1,380 )
Gains or Losses on Sales of Credit Program Assets                                                 56            54
Other                                                                                             18            66
TOTAL COMPONENTS OF THE NET COST (SURPLUS) OF OPERATIONS
THAT WILL NOT REQUIRE OR GENERATE RESOURCES IN THE CURRENT
PERIOD                                                                                $          2,959 $    (1,589 )

NET COST (SURPLUS) OF OPERATIONS                                                      $          2,369 $    (2,081 )




                                                        78
                                                                                                     2008-FO-0002

Required Supplementary Information

Schedule A: Intragovernmental Assets

FHA's intragovernmental assets, by federal entity, are as follows for the periods ending September 30, 2007 and
2006:

 (Dollars in millions)

                                      Fund
                                   Balance with     Investments in
                                       U.S.         U.S. Treasury             Other
 Agency                             Treasury          Securities              Assets

 U.S. Treasury                        $ 9,559             $ 22,481             $        -
 HUD                                            -                     -                 4
         FY 2007 Total                $ 9,559             $ 22,481              $       4

 U.S. Treasury                        $ 10,568            $    22,012           $       -
 HUD                                         -                      -                  24
         FY 2006 Total                $ 10,568            $    22,012           $      24


Schedule B: Intragovernmental Liabilities

FHA's intragovernmental liabilities, by federal entity, are as follows on September 30, 2007 and 2006:

(Dollars in millions)

                                     Borrowings
                                         from                     Other
Agency                              U.S. Treasury               Liabilities

U.S. Treasury                  $   4,573                 $ 3,657

         FY 2007 Total         $   4,573                 $ 3,657

U.S. Treasury                  $   6,258              $       2,486

         FY 2006 Total         $   6,258              $       2,486




                                                    79
2008-FO-0002

Required Supplementary Information

Schedule C: Comparative Combining Statement of Budgetary Resources by FHA Program for September
30, 2007 and September 30, 2006:
    (Dollars in millions)                         MMI/CMHI            GI/SRI          Total
                                                2007     2006     2007    2006   2007       2006

BUDGETARY RESOURCES
 Unobligated Balance Carried Forward

    Beginning of period                             $     26,367 $      26,746 $   3,055 $   2,747 $   29,422 $    29,493
 Recoveries of Prior Year Obligations                        127            56        86        47        213         103
 Budget Authority:
    Appropriations received                                  413           418      841       863       1,254       1,281
    Borrowing Authority                                        2           536      615       361         617         897
 Spending Authority from Offsetting Collections:
    Earned
       Collected                                            9,004       11,660     2,157     2,446     11,161       14,106
       Receivable from Federal Sources                         63          (62)        35     (39)          98       (101)
    Unfilled Customer Orders                                    -             -       (4)        -         (4)           -
 Net Transfers                                              (369)             -    (240)         -       (609)           -
 Permanently Not Available                                (1,919)       (1,769)    (687)     (569)     (2,606)     (2,338)

TOTAL BUDGETARY RESOURCES                           $    33,688     $   37,585 $   5,858 $   5,856     39,546 $    43,441

STATUS OF BUDGETARY RESOURCES
 Obligations Incurred               $                      8,190 $      11,218 $   4,436 $   2,800 $   12,626 $    14,018
 Unobligated Balance-Apportioned                             537         1,082       643     1,211      1,180       2,293
 Unobligated Balance Not Available                        24,961        25,285       779     1,845     25,740      27,130
TOTAL STATUS OF BUDGETARY RESOURCES $                     33,688 $      37,585 $   5,858 $   5,856 $   39,546 $    43,441

CHANGE IN OBLIGATED BALANCES
 Obligated Balance, Net, Beginning of Period:
  Unpaid Obligations Carried Forward                $       1,476 $  1,442 $    881 $    888 $  2,357 $              2,330
  Receivable from Federal Sources Carried Forward           (203)    (262)      (11)    (52)    (214)                (314)
  Obligations Incurred                                      8,190   11,218     4,436   2,800   12,626               14,018
  Gross Outlays                                           (8,101) (11,129)   (4,372) (2,760) (12,473)             (13,889)
 Obligated Balance Transfers, Net:                                       -                 -                             -
 Recoveries of Prior Year Obligations                       (127)     (56)      (86)    (47)    (213)                (103)
 Change in Receivable from Federal Sources                   (63)       62      (31)      39     (94)                  101
 Obligated Balance, Net, End of Period:
  Unpaid Obligations                                        1,435        1,477      861        880      2,296       2,357
  Receivable from Federal Sources                           (263)        (203)      (44)      (11)      (307)       (214)
 Outlays:
       Disbursements                                        8,101   11,129     4,372   2,760   12,473               13,889
       Collections                                        (9,004) (11,660)   (2,157) (2,446) (11,161)             (14,106)
       Subtotal                                             (903)    (531)     2,215     314     1,312               (217)
 Less: Offsetting Receipts                                      -        -     2,759     677     2,759                 677
NET OUTLAYS                                         $       (903) $  (531) $   (544) $ (363) $ (1,447) $             (894)




                                                    80
                                                                                                        2008-FO-0002

Required Supplementary Information
Schedule D: Comparative Combining Budgetary Resources by Appropriation for the MMI/CMHI
Program–Fiscal Year 2007
   (Dollars in millions)                                    86x4587
                                                               &              MMI/CMHI
                                          86 0183 86x4070 86x4242 86x0236        Total

BUDGETARY RESOURCES
 Unobligated Balance Carried Forward
    Beginning of period                             $        43 $       47 $     4,318 $    21,959 $        26,367
 Recoveries of Prior Year Obligations                        16         26          85           -             127
 Budget Authority:
    Appropriations received                                 413           -          -            -           413
    Borrowing Authority                                       -           -          2            -             2
 Spending Authority from Offsetting Collections:
    Earned
       Collected                                              -         59        7,221       1,724          9,004
       Receivable from Federal Sources                        -          -            -          63             63
    Unfilled Customer Orders                                  -          -            -           -              -
 Net Transfers                                              981          -            -     (1,350)          (369)
 Permanently Not Available                                 (17)          -      (1,902)           -        (1,919)
TOTAL BUDGETARY RESOURCES                           $     1,436 $      132 $      9,724 $   22,396 $       33,688

STATUS OF BUDGETARY RESOURCES
 Obligations Incurred               $                     1,390 $       68 $     6,732 $         -$          8,190
 Unobligated Balance-Apportioned                              4         15         518           -             537
 Unobligated Balance Not Available                           42         49       2,474      22,396          24,961
TOTAL STATUS OF BUDGETARY RESOURCES $                     1,436        132 $     9,724 $    22,396 $        33,688

CHANGE IN OBLIGATED BALANCES
 Obligated Balance, Net, Beginning of Period:
  Unpaid Obligations Carried Forward                $         82 $      233 $     1,161 $         -$        1,476
  Receivable from Federal Sources Carried Forward              -         (1)         (2)     (200)           (203)
  Obligations Incurred                                     1,390         68       6,732          -           8,190
  Gross Outlays                                          (1,385)       (62)     (6,654)          -         (8,101)
 Obligated Balance Transfers, Net:
 Recoveries of Prior Year Obligations                       (16)       (26)        (85)           -          (127)
 Change in Receivable from Federal Sources                     -          -           -        (63)           (63)
 Obligated Balance, Net, End of Period:
  Unpaid Obligations                                         71        212       1,152           -           1,435
  Receivable from Federal Sources                             -          -          (2)      (261)           (263)
 Outlays:
       Disbursements                                      1,385          62       6,654           -          8,101
       Collections                                                 -   (59)     (7,221)     (1,724)        (9,004)
       Subtotal                                           1,385           3       (567)     (1,724)          (903)
 Less: Offsetting Receipts                                      -         -           -           -              -
NET OUTLAYS                                         $     1,385 $         3$      (567) $   (1,724) $        (903)




                                                    81
2008-FO-0002

Required Supplementary Information

Schedule D: Comparative Combining Budgetary Resources by Appropriation for the MMI/CMHI
Program–Fiscal Year 2006
   (Dollars in millions)                                   86x4587
                                                              &              MMI/CMHI
                                          86 0183 86x4070 86x4242 86x0236       Total

BUDGETARY RESOURCES
 Unobligated Balance Carried Forward
    Beginning of period                             $        50 $     38 $     3,395 $    23,263 $     26,746
 Recoveries of Prior Year Obligations                        11       44           1           -           56
 Budget Authority:
    Appropriations received                                 418         -          -            -         418
    Borrowing Authority                                       -         -        536            -         536
 Spending Authority from Offsetting Collections:
    Earned
       Collected                                              -       48        9,450       2,162       11,660
       Receivable from Federal Sources                        -        -            -        (62)         (62)
    Unfilled Customer Orders                                  -        -            -           -            -
 Net Transfers                                            3,404        -            -     (3,404)            -
 Permanently Not Available                                 (22)        -      (1,747)           -      (1,769)
TOTAL BUDGETARY RESOURCES                           $     3,861 $    130 $     11,635 $   21,959 $     37,585

STATUS OF BUDGETARY RESOURCES
 Obligations Incurred               $                     3,816 $     84 $     7,318 $         -$      11,218
 Unobligated Balance-Apportioned                              1        2       1,079           -        1,082
 Unobligated Balance Not Available                           44       44       3,238      21,959       25,285
TOTAL STATUS OF BUDGETARY RESOURCES $                     3,861 $    130 $    11,635 $    21,959 $     37,585

CHANGE IN OBLIGATED BALANCES
 Obligated Balance, Net, Beginning of Period:
  Unpaid Obligations Carried Forward                $         94 $    266 $     1,082 $         -$       1,442
  Receivable from Federal Sources Carried Forward              -        -          (2)     (260)         (262)
  Obligations Incurred                                     3,816       84       7,318          -        11,218
  Gross Outlays                                          (3,818)     (74)     (7,237)          -      (11,129)
 Obligated Balance Transfers, Net:                             -        -            -         -             -
 Recoveries of Prior Year Obligations                       (11)     (44)          (1)         -          (56)
 Change in Receivable from Federal Sources                     -        -            -        62            62
 Obligated Balance, Net, End of Period:
  Unpaid Obligations                                         83      233       1,161           -        1,477
  Receivable from Federal Sources                             -       (1)         (1)      (201)        (203)
 Outlays:
       Disbursements                                      3,818        74       7,237           -       11,129
       Collections                                        -          (48)     (9,450)     (2,162)     (11,660)
       Subtotal                                           3,818        26     (2,213)     (2,162)        (531)
 Less: Offsetting Receipts                                -             -           -           -            -
NET OUTLAYS                                         $     3,818 $      26 $   (2,213) $   (2,162) $      (531)




                                                    82
                                                                                         2008-FO-0002

Required Supplementary Information

Schedule E: Comparative Combining Budgetary Resources by Appropriation for the GI/SRI Program–
Fiscal Year 2007
    (Dollars in millions)                                           86x4077
                                                                       &         GI/SRI
                                            86 0200     86x4072     86x4105       Total

BUDGETARY RESOURCES
 Unobligated Balance Carried Forward
    Beginning of period                             $     182 $     160 $     2,713 $     3,055
 Recoveries of Prior Year Obligations                      11        36          39          86
 Budget Authority:
    Appropriations received                               426       413           2         841
    Borrowing Authority                                     -        15         600         615
 Spending Authority from Offsetting Collections:
    Earned
       Collected                                             -       274      1,883       2,157
       Receivable from Federal Sources                       -        (6)         41          35
    Unfilled Customer Orders                                 -          -        (4)         (4)
 Net Transfers                                           (240)          -          -      (240)
 Permanently Not Available                               (101)     (173)      (413)       (687)
TOTAL BUDGETARY RESOURCES                           $      278 $     719 $    4,861 $     5,858

STATUS OF BUDGETARY RESOURCES
 Obligations Incurred               $                     175 $     484 $     3,777 $     4,436
 Unobligated Balance-Apportioned                           28       140         475         643
 Unobligated Balance Not Available                         75        95         609         779
TOTAL STATUS OF BUDGETARY RESOURCES $                     278 $     719 $     4,861 $     5,858

CHANGE IN OBLIGATED BALANCES
 Obligated Balance, Net, Beginning of Period:
  Unpaid Obligations Carried Forward                $      102 $     564 $       215 $      881
  Receivable from Federal Sources Carried Forward            -        (6)         (5)       (11)
  Obligations Incurred                                     175       484       3,777       4,436
  Gross Outlays                                          (165)     (442)     (3,765)     (4,372)
 Obligated Balance Transfers, Net:
 Recoveries of Prior Year Obligations                     (11)      (36)       (39)         (86)
 Change in Receivable from Federal Sources                   -         6       (37)         (31)
 Obligated Balance, Net, End of Period:
  Unpaid Obligations                                      100       571         190          861
  Receivable from Federal Sources                           -         -        (44)         (44)
 Outlays:
       Disbursements                                      165        442       3,765       4,372
       Collections                                          -      (274)     (1,883)     (2,157)
       Subtotal                                           165        168       1,882       2,215
 Less: Offsetting Receipts                                  -          -           -       2,759
NET OUTLAYS                                         $     165 $      168 $     1,882 $     (544)




                                                    83
2008-FO-0002

Required Supplementary Information
Schedule E: Comparative Combining Budgetary Resources by Appropriation for the GI/SRI Program–
Fiscal Year 2006
    (Dollars in millions)                                           86x4077
                                                                       &          GI/SRI
                                            86 0200     86x4072     86x4105        Total

BUDGETARY RESOURCES
 Unobligated Balance Carried Forward
    Beginning of period                             $     216 $      35 $     2,496 $     2,747
 Recoveries of Prior Year Obligations                      14        28           5          47
 Budget Authority:
    Appropriations received                               680       183           -         863
    Borrowing Authority                                     -         9         352         361
 Spending Authority from Offsetting Collections:
    Earned
       Collected                                             -      426       2,020       2,446
       Receivable from Federal Sources                       -         6       (45)        (39)
    Unfilled Customer Orders                                 -         -          -           -
 Net Transfers                                               -         -          -           -
 Permanently Not Available                                (59)      (68)      (442)       (569)
TOTAL BUDGETARY RESOURCES                           $      851 $     619 $    4,386 $     5,856

STATUS OF BUDGETARY RESOURCES
 Obligations Incurred               $                     668 $     459 $     1,673 $     2,800
 Unobligated Balance-Apportioned                           22       138       1,051       1,211
 Unobligated Balance Not Available                        161        22       1,662       1,845
TOTAL STATUS OF BUDGETARY RESOURCES $                     851 $     619 $     4,386 $     5,856

CHANGE IN OBLIGATED BALANCES
 Obligated Balance, Net, Beginning of Period:
  Unpaid Obligations Carried Forward                $       99 $     608 $       181 $       888
  Receivable from Federal Sources Carried Forward            -        (1)       (51)        (52)
  Obligations Incurred                                     668       459       1,673       2,800
  Gross Outlays                                          (652)     (474)     (1,634)     (2,760)
 Obligated Balance Transfers, Net:                           -          -           -          -
 Recoveries of Prior Year Obligations                     (14)      (28)          (5)       (47)
 Change in Receivable from Federal Sources                   -        (6)         45          39
 Obligated Balance, Net, End of Period:
  Unpaid Obligations                                      101       564         215        880
  Receivable from Federal Sources                           -        (6)         (5)       (11)
 Outlays:
       Disbursements                                      652        474       1,634       2,760
       Collections                                          -      (426)     (2,020)     (2,446)
       Subtotal                                           652         48       (386)         314
 Less: Offsetting Receipts                                  -          -           -         677
NET OUTLAYS                                         $     652 $       48 $     (386) $     (363)




                                                    84
